Report No. DODIG-2012-063              March 16, 2012




               Special Plans and Operations




        Assessment of the DoD Establishment of the
            Office of Security Cooperation-Iraq
      Inspector General                                                                                             Special Plans & Operations
                 United States Department of Defense                                                                 Our mission is to to provide assessment oversight that facilitates
                                                                                                                     informed, timely decision-making by senior leaders of the DoD and
                                                                                                                     the U.S. Congress, addressing priority national security objectives.
      Vision
         One professional team strengthening the integrity, efficiency, 

                   and effectiveness of the Department of Defense 
                                                  General Information
                               programs and operations. 

                                                                                                                       Forward questions or comments concerning this assessment and report and other
       Mission                                                                                                         activities conducted by the Office of Special Plans & Operations to spo@dodig.mil


         Promote integrity, accountability, and improvement of Department 
                                                               Deputy Inspector General for Special Plans & Operations
                                                                                                                                                Department of Defense Inspector General
             of Defense personnel, programs and operations to support the 

                                                                                                                                                           400 Army Navy Drive
                  Department's mission and serve the public interest.


                                                                                                                                                        Arlington, VA 22202-4704




                                                                                                                                               Visit us at www.dodig.mil


                                                                                                                       DEPARTMENT OF DEFENSE



                                                                                                                       hot line
The Department of Defense Inspector General is an independent, objective agency within the U.S. Department
of Defense that was created by the Inspector General Act of 1978, as amended. DoD IG is dedicated to serving                                                 make a difference   Report                        www.dodig.mil/hotline
the warfighter and the taxpayer by conducting audits, investigations, inspections, and assessments that result in                                                800.424.9098
improvements to the Department. DoD IG provides guidance and recommendations to the Department of                                                                                Fraud, Waste, Mismanagement, Abuse of Authority
                                                                                                                                                                                 Suspected Threats to Homeland Security
Defense and the Congress.                                                                                              Defense Hotline,The Pentagon, Washington, DC 20301-1900   Unauthorized Disclosures of Classified Information
Page Intentionally Blank
	
DODIG-2012-063 (Project No. D2011-D00SPO-0203.000)	                             March 16, 2012



               Results in Brief: Assessment of the DoD
               Establishment of the Office of Security
               Cooperation - Iraq
                                                             to adequately manage its major functions
What We Did                                                  within the framework of the U.S. Mission to
Our purpose was to determine whether DoD:                    Iraq.
 •	 met requirements to effectively execute the
    plan for transitioning authority, personnel,          What We Recommend
    and equipment from DoD to Chief of                    Among other things, we recommend that the
    Mission Baghdad, and                                  Commander, U.S. Central Command, promptly
 •	 provided the required support to meet
	               issue completed Iraq Country Plan details and that
    initial operating capability to ensure that
	         the Chief, Office of Security Cooperation - Iraq:
    the OSC-I at full operating capability
	               •	 improve information flow to site personnel to
    would be sufficient to accomplish the
	                   provide clarity and achieve unity of effort,
    mission of supporting Iraq Security Forces
	           •	 communicate sufficient details about the OSC-
    capability development.
	                                 I role and its operating processes with key
                                                              Iraqi defense and interior ministry officials to
What We Found                                                 enable their understanding of and confidence
The establishment of the OSC-I was on track                   in the future of the program, and
and on schedule to meet its full operating                 •	 develop standard operating procedures for
	
capability target date of October 1, 2011 and to              OSC-I administrative and operational 

operate independently as an element of U.S.                   processes and procedures that include
	
Mission to Iraq by January 1, 2012. However,                  interagency operations within the overall
	
we identified key areas that required                         framework of U.S. Mission to Iraq authority
	
management attention. We determined that                      and responsibility.
	
U.S. Forces – Iraq Deputy Commanding
General for Advising and Training:                        Management Comments and
 •	 was managing crucial security cooperation 
           Our Response
    activities with incomplete theater and
	              USCENTCOM made several suggestions for
    country-level plans and without the
	                 updating information in the report, some of
    required planning capability
	                        which we have accepted. USCENTCOM
 •	 had not clearly communicated information 
            concurred but did not comment on
    about the OSC-I enduring role regarding
	             Recommendation 1.a., specifying what actions
    security cooperation programs with key
	              it planned for implementing the
    Ministry of Defense and Ministry of
	                 recommendation. The comments provided by
    Interior officials
	                                  the Office of Security Cooperation-Iraq to the
 •	 had not fully engaged and shared essential
	          remaining seven recommendations were either
    transition details with key personnel at 
            partially or not responsive. We request that
    prospective outlying OSC-I sites
	                    USCENTCOM and OSC-I provide additional
 •	 had not established detailed internal standard        comments to the final report by April 16, 2012.
    operating procedures for the OSC-I essential          Please see the table on the following page.
                                                    i
	
DODIG-2012-063 (Project No. D2011-D00SPO-0203.000)                     March 16, 2012




Recommendations Table

Client                      Recommendations   No Additional Comments
                            Requiring Comment Required

Commander, U.S.             1.a.
Central Command

Chief, Office of Security   1.b., 2.a., 2.b., 3.a.,
Cooperation – Iraq          3.b., 4.a., and 4.b.


Note: In this final report we have made some recommendations to the Chief of the
Office of Security Cooperation in Iraq in that the United States Forces-Iraq, Deputy
Commanding General for Advising and Training position was disestablished in
December 2011.

Total Recommendations in this Report: 8. Please provide comments by
April 16, 2012.




                                               ii
	
Table of Contents
Results in Brief                                                               i
	

Recommendations Table                                                         ii
	

Introduction                                                                   1


Observation 1. Security Assistance and Security Cooperation Planning 

               for Iraq                                                        9


Observation 2. Communication with Key Iraqi Officials Concerning

               Future Security Cooperation and Assistance                     17 


Observation 3. Establishment of Outlying Office of Security Cooperation – 

               Iraq Sites                                                     21 


Observation 4. Office of Security Cooperation – Iraq Standard Operating
	
               Procedures                                                     27 


APPENDIX A. Scope, Methodology, and Acronyms                                  33 


APPENDIX B. Summary of Prior Coverage                                         35 


APPENDIX C. Glossary                                                          37 


APPENDIX D. Office of Security Cooperation – Iraq Security Assistance

            and Security Cooperation Functions                                39 


APPENDIX E. Organizations Contacted and Visited                               57 


APPENDIX F. Management Comments                                               59 


APPENDIX G. Report Distribution                                               65 

Page Intentionally Blank
	
Introduction
Background
This is the second in a series of DoD Office of Inspector General, Special Plans and
Operations reports regarding establishment of an Office of Security Cooperation – Iraq
(OSC-I).

On August 25, 2011, the DoD Inspector General issued Report No. SPO-2011-008,
“Assessment of Planning for Transitioning the Security Assistance Mission in Iraq from
Department of Defense to Department of State Authority.” The report determined that,
despite some shortcomings, detailed planning to accomplish the transition of the security
assistance function to U.S. Mission to Iraq authority was sufficiently developed and
operative.

This report is based on a subsequent review of efforts underway in 2011 to establish a
fully functional OSC-I, to transition the security assistance mission to U.S. Mission to
Iraq, and to ensure the sustained, successful operation of the security assistance mission
in Iraq post-2011.

Objectives
On April 4, 2011, DoD Inspector General announced the “Assessment of the DoD
Establishment of the Office of Security Cooperation-Iraq.”

Specific objectives for this assessment included determining whether:
   •	 Requirements were being met to effectively execute the plan for transitioning
       authority, personnel, and equipment from U.S. Forces-Iraq (USF-I) to the OSC-I
       and Chief of Mission in Baghdad; and,
   •	 Required Department of Defense support had been provided to meet “initial
       operating capability” (IOC) and ensure sufficiency and capacity of the OSC-I at
       “full operating capability” (FOC) that would accomplish its mission of supporting
       Iraqi Security Forces (ISF) capability development post-2011.

Political-Military Context
Enduring Security Partnership
On February 27, 2009, in remarks delivered at Camp Lejeune, North Carolina, President
Obama made his intentions clear that all U.S. troops would depart Iraq by the end of
2011. 1 In that address he outlined the United States approach to a responsible military


1
  Remarks of President Barack Obama (as prepared for delivery), “Responsibly Ending the War in Iraq,”
February 27, 2009. Downloaded from http://www.whitehouse.gov/the-press-office/remarks-president-
barack-obama-ndash-responsibly-ending-war-iraq, on July 14, 2010. The speech outlined the strategy and
phased approach for the responsible drawdown of U.S. forces in Iraq and development of an enduring
strategic partnership with Iraq.


                                                   1
	
drawdown by pledging to remove all combat forces by August 2010 and to withdraw all
U.S. troops by December 31, 2011. The President further indicated that, following 2011,
the United States was committed to pursuing sustained diplomacy to build a lasting
strategic relationship between the two countries. These words had far-reaching impact
and set in motion several important actions, which included establishing the basis for a
robust Office of Security Cooperation-Iraq.

Planning the Drawdown and Enduring Mission
United States Forces-Iraq, through its Deputy Commanding General for Advising and
Training (DCG [A&T]), has performed most of the detailed planning for establishing the
OSC-I and transitioning the security assistance mission from DoD to Department of State
(DoS) authority. U.S. Central Command (USCENTCOM), the geographical combatant
command which includes Iraq, otherwise retained responsibility for broader planning
within their theater area of operations. Among other actions, this entailed developing an
overarching Theater Campaign Plan (TCP) that would provide broad theater security
cooperation guidance, as well as more detailed country related context and specifics in
the form of an Iraq Country Plan (ICP).

By mid-2009, USF-I had developed a recommendation for a robust OSC-I consisting of
157 core members, capable of a broad range of security assistance and security
cooperation activities. 2 Potentially one of the largest such security cooperation offices
ever, the National Security Council approved that recommendation in October 2009 for
planning purposes only, as authority to establish an OSC-I ultimately hinged on a
bilateral U.S. and Government of Iraq (GoI) agreement. Most of USF-I was primarily
focused on executing the drawdown of U.S. forces and other operations.

Per Article 24 of the 2008 U.S.-Iraq Security Agreement, all U.S. Forces were to
withdraw from all Iraqi territory no later than December 31, 2011. As this date became
the “not-later-than” date for USF-I to disestablish and contingency operations to come to
a close, USF-I had to identify and transfer or terminate responsibility for its critical
functions. USF-I identified its major functions in early 2010, which included specific
activities that would transfer to OSC-I under Department of State’s Chief of Mission
authority.

Transition Complexities
Conducted within a non-permissive security environment, 3 the mere scope and
magnitude of U.S. transition activities was daunting. 4 The overarching U.S. transition,



2
  See Appendix D for more detailed information regarding OSC-I security assistance and security
cooperation functions.
3
  Joint Publication 1-02 defines permissive environment as: “Operational environment within which host
country military and law enforcement agencies have control as well as the intent and capability to assist
operations that a unit intends to conduct.” This report uses this definition to explain a non-permissive
environment as one in which some level of lawlessness or heightened risk is assumed due to a breakdown
in host country military and law enforcement capability. (See Appendix C)


                                                    2
	
for instance, consisted of several separate, but related, macro-level activities which were
occurring almost simultaneously in preparation for the complete withdrawal of U.S.
military forces. Some of the more significant transitions included:
    •	 reorganizing Multi-National Forces-Iraq and the two other major commands in
       Iraq as USF-I in early 2010 5
    •	 transitioning functions from U.S. military to civilian responsibility
    •	 transitioning from U.S. to Iraqi security lines of operation
    •	 establishing the enduring security assistance mission
    •	 establishing appropriate levels of support in the provinces, through the right-
       sizing of Provincial Reconstruction Teams and the Advise and Assist Brigades’
       operations
    •	 restructuring and establishing internal embassy organizations and processes, and
    •	 ensuring the security of the GoI 2010 elections.
Functions frequently blurred across lines of authority and crossed multiple transitions.
Aspects of establishing the OSC-I, for example, fell within the move from military to
civilian responsibility, establishing the enduring security assistance mission, and
restructuring within the embassy. That the United States and the GoI had not yet agreed
to what, if any, functions the OSC-I might perform added to the uncertainty, along with
other factors that also had an impact.

As transition workloads increased, USF-I manpower was ever-decreasing during the
2010-2011 period. Transition plans called for the new OSC-I to be drawn from elements
of the USF-I Deputy Command General for Advising and Training. Within DCG (A&T),
however, prospective OSC-I components were competing for the attention of personnel
whose focus was divided between having to accomplish ongoing advise, equip, train, and
assist duties or devote their energies toward instituting necessary new and enduring
security assistance and cooperation capabilities and processes. This challenge of
competing priorities increased as DoD unexpectedly expanded USF-I’s transitional role.

DoD Support for Six Outlying Sites
The DoD OSC-I transition workload significantly increased on short notice in the fall of
2010 when the Department of State did not secure full congressional funding for all of its
post-2011 activities. DoD subsequently agreed to take responsibility for establishing,
funding, managing, and maintaining six of the ten sites throughout Iraq from which
OSC–I entities would operate. 6 DoD taking over responsibility from DoS included


4
  In 2010, planners had identified and adjudicated 1127 activities performed by U.S. Forces. By mid 2011,
	
696 of these were either already completed, already being accomplished by the Embassy, or already
	
terminated: the remaining 431 were to transfer to either U.S. Embassy-Baghdad, USCENTCOM, the GoI,
	
or the Department of State.

5
  As of January 1, 2010, the three Iraq major commands, Multi-National Force-Iraq, Multi-National Corps
	
– Iraq, and Multi-National Security Transition Command – Iraq, merged into a single command U.S.
	
Forces – Iraq.

6
  The outlying sites that DoD agreed to fully support were: Union III (Baghdad), Besmaya, Taji, Umm
	
Qasr, Tikrit, and Kirkuk. DoS and DoD initially agreed, and DoD planned, to support four sites for
	


                                                    3
	
providing for construction upgrades, security and force protection, base operating
support, and establishing and running operations centers at the six DoD-sponsored sites.
Figure 1 depicts the 10 sites, reflecting the projected OSC-I and security assistance team
(SAT) presence at each site as well as the additional support personnel required to
maintain the six DoD-sponsored sites.




                Figure 1. DoD Personnel Footprint at OSC-I and Shared Outlying Sites

As reported by USF-I officials, Congress authorized $129.1 million for military
construction in its FY 2011 appropriation and another $75 million to cover DoD
sustainment costs for the six OSC-I sites that it was to manage. DoD had additionally
requested $524 million in FY 2012 to enable DoD to sustain operations of its six sites, as
well as to cover OSC-I and SAT activities at the four other DoS-sponsored sites
throughout that fiscal year. 7


primarily conducting OSC-I related activities (Union III, Besmaya, Taji, and Umm Qasr). Tikrit, as another
primary OSC-I site, and Kirkuk, as a DoD-sponsored shared site, were agreed to and added later.
7
  The National Defense Authorization Act for Fiscal Year 2012, Section 1215, entitled “Authority to
support operations and activities of the Office of Security Cooperation in Iraq,” states that authorized types
of support “…may include life support, transportation and personal security, and construction and
renovation of facilities.” The provisions of Section 1215, sub-paragraph (e), “Coverage of Costs of OSCI
in Connection with Sales of Defense Articles or Defense Services to Iraq,” also require that future foreign


                                                      4
	
In addition to providing complete resourcing for the six designated DoD OSC-I sites, the
DoD also undertook other measures to ensure the success of the OSC-I by:
    •	 Designating the Chief of Staff for the Under Secretary of Defense for Policy as
        the Office of the Secretary of Defense point of contact for Iraq transition, thus
        ensuring the Iraq effort received the primary point of coordination and also the
        focused attention required.
    •	 Appointing a general officer as the Joint Staff point of contact for Iraq.
    •	 USF-I providing to the DCG (A&T) increased U.S. Army Corps of Engineer and
        other senior staff support resources and personnel.
    •	 USCENTCOM forming a dedicated Iraq Transition Operational Planning Team
        composed of cross-functional staff experts to serve as a single Command point of
        contact and central coordinator for all Iraq transition issues.

Delayed Security Cooperation Planning Guidance
While USF-I initiated development of new plans at the field command level,
USCENTCOM delayed issuing updated Theater Campaign and Theater Security
Cooperation Plans, to include related ICP details. Though recognizing the importance of
an ICP as being integral to effectively implementing security cooperation activities,
USCENTCOM decided to first develop and issue an Iraq Transition Plan in December
2010 to further the operational transition from combat to stability support operations.
USCENTCOM eventually issued an updated Theater Campaign Plan in March 2011 but
deferred issuing that plan’s security cooperation and ICP sections until later.

USCENTCOM issued major portions of its ICP on October 26, 2011, nearly a month
after OSC-I reached full operating capability. This delay caused OSC-I to have
incomplete theater level security cooperation guidance and limited regional planning
context specific to Iraq that impacted its ability to perform the more detailed, longer-
range security cooperation planning required to effect mutually reinforcing activities at
its level. As of November 30, 2011, USCENTCOM was still coordinating key portions
of its ICP, and it remained incomplete.

Ongoing Activities
During the course of this assessment, the team identified many factors that affected the
establishment and transition of the OSC-I that were beyond USF-I and, in some cases,
DoD control. Though not exhaustive, a brief listing includes:
     •	 lack of full Department of State funding for post-2011 operations in Iraq
     •	 uncertainty over the ultimate size of any potential U.S. post-2011 military
        presence
     •	 lack of formal, bilateral approval of the OSC-I
     •	 lack of approval of and resourcing for the OSC-I support structure


military sales contracts with Iraq include “…charges sufficient to recover the costs of operations and
activities of security assistance teams in Iraq in connection with such sale.”


                                                     5
     •	 lack of approval of OSC-I presence at outlying foreign military sales (FMS) sites
        and associated land use agreements
     •	 need for congressional approval of certain Title 10, United States Code (10
        U.S.C.), Armed Forces, authorities for OSC-I support
     •	 need for sufficient DoD funding for post-2011 OSC-I 10 U.S.C. activities
     •	 lack of agreement over protections and immunities for DoD personnel
	
        performing security cooperation activities in post-2011 Iraq, and
	
     •	 uncertainty of in-country air and ground movement capability for OSC-I and
        related security assistance and security cooperation personnel post-2011.

In general, all of these aspects were being addressed and, in some cases, resolved at the
time of this report. But failure to progress or to resolve them satisfactorily on a timely
basis had the potential to significantly impact the OSC-I stand-up and transition to post-
2011 activities. In addition, the dangerous security environment in Iraq may limit OSC-I
oversight execution of its security assistance and security cooperation responsibilities,
and place personnel and the mission in an untenable situation, a point that will need to be
incorporated into mission contingency planning.

Requirements Being Met
At full strength, the 157-person OSC-I will be expected to perform all of the major
statutory security assistance and security cooperation functions. 8 The USF-I plan called
for initially transitioning all security assistance functions in mid-2011; and, then building
to full capability over a subsequent four month period by incrementally transitioning
responsibility for the remaining security cooperation activities.
On June 1, 2011, the OSC-I declared its organization to have attained initial operating
capability. The USF-I Operations Order (OPORD) 11-01 defined IOC as a conditions-
based milestone with the following broad conditions:

    •	 All security assistance functions 9 transitioned to the OSC-I.
    •	 Establishment of a mechanism to coordinate personnel and function flow into
       OSC-I from IOC to full operational capability.
    •	 Site construction and equipment and personnel flow synchronized via on-site
       Mayor Cells.
    •	 OSC-I support functions established.

The OSC-I attained FOC on October 1, 2011. FOC was also described as a conditions-
based milestone, as defined by:




8
  Foreign Assistance Act of 1961, as amended, stipulates legislated functions in Title XII, Section 515. (See
Appendix D.)
9
  Examples of major Security Assistance functions include: Foreign Military Finance Program, Foreign
Military Sales, International Military Education and Training, and End-use Monitoring. Refer to Appendix
D for additional security assistance functions and details.


                                                     6
	
   •	 The OSC-I being fully resourced, authorized, and responsible for all security
      assistance and security cooperation activities.
   •	 Operating at all approved sites (meeting this condition was waived for an interim
      period because site preparations were not completed by October 1, 2011).
   •	 The OSC-I recognized as the DoD organization responsible for coordinating with
      DoS on security assistance and security cooperation projects and activities.

Despite the complexities and uncertainties still associated with establishing the OSC-I
and transitioning security assistance and security cooperation activities from DoD to the
Department of State authority, the DCG (A&T) and its OSC-I team were commendably
moving ahead, while USF-I was concentrating on the challenges of drawing down its
forces and preparing and transferring former U.S. operating bases to Iraqi authority. As
USF-I personnel prepared and transferred bases, they were also preparing certain sites
within larger Iraqi facilities to accommodate the continuing U.S. security assistance
functions with the ISF.

Though on a positive trajectory, the situation in Iraq remains dynamic and will likely
present unique challenges that demand continuing high levels of inter-departmental
attention, coordination, and oversight to ensure success over the immediate future and
beyond. The relationships between DoD and DoS in Iraq will differ considerably from
how the two Departments interact within other countries and diplomatic postings.
Because funding was mainly provided outside the President’s budget, Congress
constructed unique authorities and constraints that put tight controls on how money can
be used. OSC-I’s ability to directly oversee security cooperation activities throughout
Iraq will likely also be more limited than related offices in other countries, due to the
reduced number of U.S. personnel remaining after all U.S. military troops depart Iraq and
the constraints related to moving those personnel within Iraq’s very dangerous security
environment.

The combined impact of staffing reductions, the filling of remaining positions with
individuals who might have little or no experience functioning under special authority
arrangements and controls, and the security restrictions on mobility throughout Iraq could
limit OSC-I oversight of security cooperation activities. Reduced oversight increases the
risk of potential waste and mismanagement, particularly in regards to ensuring
compliance with special congressional limitations and restrictions on funds expenditures.

Security cooperation can be difficult even under normal circumstances, but the non-
standard inter-departmental arrangements, the magnitude of high value defense articles
the United States is providing via the Foreign Military Sales Program and other security
cooperation venues, and the variety of special funding sources and authorities will likely
make security cooperation in Iraq especially complex. This combination of factors may
necessitate a continuing need for robust oversight capabilities to ensure the effective use
of DoD funds and other resources by OSC-I in Iraq. Close monitoring may be necessary
to prevent fraud, waste, and abuse of funding and other resources in order to ensure
current and future mission success.




                                             7
	
Post-Transition Realities
While meeting major milestones to effectively establish and transition the OSC-I from
DoD to DoS authority by January 1, 2012, the inability of the U.S. and Iraq governments
to reach key agreements has since impacted OSC-I ability to operate as planned within
the dynamic post-2011 security environment in Iraq. In responding to a draft of this
report, senior OSC-I officials indicated that the absence of a post 2011 Security
Agreement or Status of Forces Agreement was affecting aspects of its operations.
Among others, these included: land use agreements, force protection, passport/visa
requirements, air and ground movement, and site stand-up. Unless these important
matters can be resolved in a timely manner, an increasing risk is posed that the OSC-I
will be unable to effectively accomplish its post-2011 security cooperation activities. In
addition, accomplishment of its longer-term mission to enhance development of an
effective security partnership with Iraq may be affected.




                                            8
	
Observation 1. Security Assistance and
Security Cooperation Planning for Iraq
The Office of Security Cooperation – Iraq was managing activities crucial to initiating
and sustaining its security assistance and cooperation mission without sufficient
USCENTCOM guidance to enable its country-level implementation planning to proceed
on a timely and effective basis and without the required planning personnel or capability
that it was designed to have.

These planning limitations and delays primarily occurred because:
         •	 USCENTCOM delayed issuing its theater campaign level security cooperation
            guidance and necessary Iraq Country Plan details.
         •	 DCG (A&T) officials did not consolidate related security cooperation
            planning efforts before the OSC-I achieved initial operating capability on June
            1, 2011.
         •	 DoD assumed responsibilities from DoS that increased the OSC-I transition
            workload and inhibited DCG (A&T) and the OSC-I from standing-up the
            required planning capability on the timeline originally intended.

These limitations impeded OSC-I from effectively informing significant DoD, DoS, and
GoI budgeting and resourcing decisions. Planning shortfalls inhibited OSC-I from
effectively informing key Iraqi Ministry of Defense (MoD) officials regarding the
operational development of its security forces and contributed to USF-I providing U.S.
Mission to Iraq with hastily prepared information that the respective departments
required to develop their FY 13 budget request submissions. Further, DoD and DoS
ability to secure critical resources and inform important GoI security decisions may be
impeded post-2011.

Applicable Criteria
DoD Directive 5132.03, DoD Policy and Responsibilities Relating to Security
Cooperation, October 24, 2008.

Discussion
Background
Even under normal circumstances, traditional security cooperation 10 planning is complex
due to the broad range of activities involved, the numerous programs and funding sources


10
   As used here, security cooperation is an umbrella term encompassing all DoD interactions with foreign
defense establishments to build defense relationships that promote specific U.S. security interests, develop
allied and friendly military capabilities for self-defense and multinational operations, and provide U.S.
forces with peacetime and contingency access to a host nation. (See Appendix D for additional details).


                                                      9
	
for performing those activities, and the legal, regulatory, and fiscal constraints on various
programs. The DoS is responsible for funding and executing certain programs through
the authority of Title 22, United States Code (22 U.S.C.), Foreign Relations and
Intercourse, while DoD is responsible for funding and executing a myriad of other
security cooperation programs through the authority of Title 10 U.S.C., Armed Forces.

DoD assists in managing the full range of security cooperation activities, via security
cooperation offices, in support of the Chief of Mission for the country and the
Geographic Combatant Commander of the military region involved. Detailed country
level security cooperation planning, based on theater/regional planning, must therefore
support both DoS and DoD responsibilities, which includes implementation and
compliance with each of the many Title 10 and Title 22 security cooperation programs.

This detailed planning is critically important for a number of reasons, among which are:
   •	 to support theater and national security cooperation objectives,
   •	 to relate how security cooperation activities undertaken on behalf of the host
       country support attaining these objectives, and
   •	 to link key details for conducting those activities to lawfully authorized security
       cooperation programs.
Collectively, these required planning actions assist in ensuring that funding, personnel,
and other resources necessary to implement the desired programmatic activities are
obtained when required. Timely planning is also necessary to assist in complying with
any governing security cooperation program implementation guidelines or constraints
that may apply.

Theater Security Cooperation Planning
USCENTCOM issued an updated Theater Campaign Plan in March 2011, but deferred
developing both the security cooperation and Iraq Country Plan sections of that plan until
later. In the interim, the DCG (A&T) and OSC-I were increasingly affected by the
broader USF-I personnel drawdown, became decisively engaged in the OSC-I transition,
and could not divert personnel to address the lack of theater level security cooperation
planning aspects that USCENTCOM was responsible for providing.

OSC-I was focused on Iraq and they depended on USCENTCOM experts to provide key
theater-related security cooperation information and regional context to support its more
detailed planning. The diagram in Figure 2 depicts the Security Cooperation Planning
Hierarchy for Iraq. Within broader DoD and DoS planning processes, USCENTCOM
serves a key function in translating national goals into theater level objectives and other
aspects that pertain more directly to Iraq. This, in turn, enables the more detailed OSC-I
planning necessary to support coordinating and synchronizing country-specific security
cooperation activities for effective implementation. OSC-I planning also serves as the
basis for providing DoD, DoS, and GoI coherent inputs to their respective budgeting and
resourcing processes. USCENTCOM did not issue the Iraq Country Plan until October
26, 2011, but that issuance was incomplete because it did not contain many of the more



                                             10
	
detailed sections essential for OSC-I to effectively implement important activities at its
level. USCENTCOM was still coordinating those more detailed sections as of November
30, 2011. These delays impeded OSC-I planning and its ability to implement its
operating objectives. 11

                                    Security Cooperation Planning Hierarchy for Iraq
                                                                      National Security Strategy

                                                  Department of Defense                         Department of State

            National Strategy                  National Defense Strategy
                                                National Military Strategy

                                                Guidance for Employment
                                                   of the Force (GEF)
       Departmental Strategic
        Policy Guidance and                          Joint Strategic                               Strategic Plan
               Plans                             Capabilities Plan (JSCP)                          (DoS/USAID)*

                                         DSCA* Strategic Plan and Security
                                         Assistance / Cooperation Guidance

                                        USCENTCOM Theater Campaign Plan

             Regional Plans                 USCENTCOM Theater Security                 DoS Middle East Regional Bureau
                                               Cooperation Guidance                                 Plan

                                           USCENTCOM Iraq Country Plan
                                                                                           U.S. Embassy – Baghdad
                                                                                               Mission Strategic
             Country Level                                                                      Resource Plan
          Plans and Planning
                                                                          OSC-I
      *DSCA = Defense Security Cooperation Agency           Security Assistance / Cooperation
      *USAID = U.S. Agency for International Development             Planning Efforts


                              Figure 2. Security Cooperation Planning Hierarchy for Iraq

Concurrent Activities in Contingency Operations
During the DoD IG visit in July 2011, the team observed that the DCG (A&T) was
concurrently performing advising and training operations for the Iraqi Security Forces as
well as transitioning the OSC-I from initial to full operating capability. Since Operation
New Dawn (OND) had commenced in September 2010, the DCG (A&T) Iraq Training
Assistance Missions 12 had conducted advising and training operations mainly with their
respective Iraqi Security Forces counterparts along lines that corresponded to the various
U.S. Army, Navy, and Air Force Military Departments. OSC-I planning reflected this
Service-centric approach, which, under OND authorities, appeared appropriate.




11
   Failure to publish an Iraq Country Plan was cited as a finding in DoD IG Report No. SPO-2011-008,
	
“Assessment of Planning for Transitioning the Security Assistance Mission in Iraq from Department of
	
Defense to Department of State Authority.” 

12
   For example, Iraq Training Assistance Mission-Army, Iraq Training Assistance Mission-Navy, Iraq
	
Training Assistance Mission-Air.
	


                                                                      11
	
In general, DCG (A&T) was already complying with many Title 22 provisions and OND
provided a unified set of Title 10 contingency funding and governing authorities that
applied to DCG (A&T) advising and training efforts. Throughout OND, DoD, not DoS,
was responsible for key Title 22 security assistance programs in Iraq but adhered to
existing provisions, restrictions, and processes where possible. OND otherwise offered a
single, straightforward Title 10 funding source and operational resources to conduct a
broad range of security cooperation related activities. Under OND authority, for
example, DCG (A&T) personnel were able to do more than advise and train; they
actually performed certain military functions for the ISF, something that most security
cooperation programs strictly prohibit. This single set of Title 10 authorities afforded
DCG (A&T) flexibility in executing its activities. But the post-2011 situation would
have to be very different.

Although DCG (A&T) and OSC-I security cooperation activities were similar in some
respects, authorities would change significantly by the end of 2011. As OND ended, and
USF-I and DCG (A&T) disbanded, DoS would assume full responsibility, which
included reasserting its normal responsibility over Title 22 security assistance programs.
Broad ranging OND Title 10 authorities would also end. Though Congress had enacted
special authorities and provisions for FY12, these dealt mainly with establishing and
managing OSC-I sites and performing various support activities (e.g., construction, life
support, and movement security). Performing post-2011 activities required OSC-I to
utilize existing security cooperation program funding and resources, but also necessitated
complying with the provisions and restrictions for each of the many lawfully authorized
programs that might apply. 13 During our visit, the DoD IG team observed that OSC-I
planning had not accounted for these changes.

During the DoD IG team visit, OSC-I planning mainly focused on establishing the OSC-I
and preparing and managing its various outlying sites. It had not yet accounted for the
more varied mix of Title 10 and Title 22 program and other authorities that were
expected to apply post 2011. According to DoD security cooperation planning experts,
however, effective planning involved integrating across Service-centric planning lines
and linking key details of ongoing and proposed activities for a three-to-five year period
with the various lawfully authorized security assistance and cooperation programs. This
was necessary in order to support successfully securing required funding and resources.
Although the majority of DCG (A&T) officials interviewed were familiar with operating
under OND guidelines, they had little experience with and knowledge of the many other
security cooperation program funding procedures, legal constraints, or governing
authorities. OSC-I planning had therefore progressed along Service-centric lines and had
not linked security cooperation related activities with authorized security cooperation
programs within a single, integrated plan. These shortcomings impaired OSC-I
development and management.


13
  Security cooperation programs included but were not limited to: Foreign Military Sales, Foreign Military
Financing Program, Aviation Leadership Program, Department of Defense Regional Centers for Security
Studies, Developing Country Combined Exercise Program, Joint Combined Exercise Training, and
Training and Doctrine Conferences and Working Groups. (See Appendix D for expanded information)


                                                   12
	
As an example, OSC-I officials expected to conduct a bilateral training exercise with Iraq
as part of their 2012 security cooperation activities, but USCENTCOM officials were
undecided on whether to support this effort because they had not received sufficient
details about the training exercise or its objectives. As a result, USCENTCOM did not
specifically reserve funds in any of its related security cooperation programs to support
executing the event or any of its preparation activities. OSC-I officials cited similar
planning difficulties as contributing to USF-I providing U.S. Embassy-Baghdad with
hastily prepared FY13 budget inputs and to inhibiting implementation of key Iraqi
Ministry of Defense force development initiatives. USF-I and USCENTCOM officials
indicated that planning shortfalls might additionally continue to affect upcoming FY13
DoD budget submissions that were due to be submitted by the end of 2011.

Unexpected Workload Increase
In late December 2010, DoD agreed to assume the responsibility for establishing and
managing OSC-I sites at various locations throughout Iraq when DoS was unable to do
so. This added major complications to planning the transition of security cooperation.
Before the agreement between DoD and DoS concerning OSC-I sites, the OSC-I standup
entailed developing an OSC-I organizational structure, providing manning, and effecting
a modular, largely administrative, transfer of personnel and functions from the
DCG (A&T) organization to form the new OSC-I sections. After the new DoD support
agreement was reached with DoS, USF-I became responsible for several additional major
tasks related to standing-up and managing OSC-I sites, which involved coordinating
details for and awarding numerous support and construction contracts. USF-I ultimately
assigned DCG (A&T) as lead agent for many of these tasks, including:
   •	   verifying OSC-I site requirements
   •	   accounting for tenant units and personnel
   •	   synchronizing security and construction details
   •	   coordinating for basic life support and sustainment
   •	   establishing command and control infrastructure and capabilities, and
   •	   coordinating the necessary manpower resources and funding authorities.

USF-I shifted operational resources and staff personnel to bolster the DCG (A&T) and
OSC-I transition efforts that were occurring within an insecure operational environment.
Despite that initial added support, DCG (A&T) subsequently had to shift even more of its
personnel to meet tight OSC-I site stand-up timetables. OSC-I officials cited a number of
resulting complications, along with other factors, that impeded their planning, such as:
    •	 conflicts over whether an individual’s DCG (A&T) or OSC-I duties took 

       precedence
	
    •	 diversion of personnel from their assigned OSC-I positions to fill other billets
    •	 delays in contracting for an experienced cadre of OSC-I planner personnel
    •	 a notable shortage of experienced foreign area officers, and
    •	 difficulty coordinating travel within Iraq, primarily due to the security situation.


                                             13
	
Besides these complications, other factors made establishing the required OSC-I planning
capability more difficult, and potentially more urgent and imperative, than initiating other
OSC-I sections. For instance, Iraq Training Assistance Missions were planning their
Service-centric advising and training activities, but no one in DCG (A&T) was planning
for the integration of those efforts and the linking of requirements with authorized
programs that would carry into 2012 and beyond.
OSC-I had originally intended to establish the necessary planning capability but, because
DCG (A&T) had not integrated its planning efforts, there was no existing integrated
planning capability for the OSC-I to incorporate or to effectively build upon. Combined
with the complications of standing up the outlying OSC-I sites, not having an existing
integrated DCG (A&T) planning effort or capability made establishing that capability
within OSC-I more difficult. Security cooperation planning efforts were therefore not
supported by an organized OSC-I planning capability that consolidated the many tasks to
be completed and that explicitly related those details to specific security cooperation
programs within a single integrated plan.

Conclusion
DoD Directive 5132.03 states that security cooperation “shall be planned, programmed,
budgeted, and executed with the same high degree of attention and efficiency as other
integral DoD activities.” This policy recognizes security cooperation as important to
advancing U.S. goals and objectives with respect to enhancing bilateral relations with a
host nation. Collective USCENTCOM, USF-I, and OSC-I planning for Iraq did not
effectively comply with this policy. Along with developing mutually reinforcing plans at
multiple echelons, one recognized planning approach is to develop a long-term country
level plan that spans a three–to–five year period and integrates across functions and
programs in order to consistently guide DoS, DoD and, in this case, GoI security sector
strategic planning and budgeting efforts. USCENTCOM issued an Iraq Country Plan on
October 26, 2011, but, as of November 30, 2011, detailed portions of that plan that USF-I
and OSC-I were involved in providing were still uncompleted.

As a result, management of security cooperation efforts for Iraq, to include crucial DoS,
DoD, and Iraqi budgeting and resourcing decisions, were impaired because
USCENTCOM, USF-I, and OSC-I had not sufficiently developed the necessary planning
capability needed to effectively initiate and sustain activities under the post-transition
authorities. For this and other reasons cited they had not prepared plans that would
enable the OSC-I to initiate and sustain its programmatic activities in the post-transition
era.

Planning shortfalls that included delays in providing Iraq Country Plan details and a lack
of requisite OSC-I planning capability limited OSC-I ability to effectively manage
development efforts in support of the Iraqi Security Forces and contributed to hastily
prepared FY13 budgeting inputs. Further, the ability of DoD and DoS to secure critical
resources and inform important GoI security decisions could also be impeded. As a
result, OSC-I mission implementation could be negatively impacted.




                                            14
	
Recommendations, Management Comments, and Our
Response
1.a. Commander, U.S. Central Command promptly issue completed Iraq Country Plan
details sufficient to effectively support implementing the activities of the Office of
Security Cooperation-Iraq through 2012 and focusing its longer-term efforts.

Management Comments
Responding for the Commander, USCENTCOM Inspector General concurred with
Recommendation 1.a., without any additional comments specific to the recommendation.

Our Response
USCENTCOM comments are partially responsive. While concurring, USCENTCOM
did not specify what actions it planned for implementing the recommendation. As of
November 30, 2011, we noted the ICP that USCENTCOM issued in late October 2011
was incomplete because it lacked details essential for OSC-I to effectively implement
important activities at its level. Specifically, Annex O, Security Cooperation, lacked the
appendices with the details describing how the plan will be implemented. We request
that USCENTCOM provide us a copy of the completed ICP, to include these appendices,
and supporting documentation showing when and how it was distributed in response to
the final report.

1.b. Chief, Office of Security Cooperation-Iraq, coordinate with the Director, Defense
Security Cooperation Agency to immediately request that a security cooperation
management assistance team deploy to Iraq to support the accelerated stand-up of the
required planning capability of the Office of Security Cooperation-Iraq.

Management Comments
Office of Security Cooperation-Iraq J3 comments were forwarded to us in a letter from
the USCENTCOM Inspector General. The OSC-I J3 neither concurred nor non-
concurred with Recommendation 1.b., stating simply that action had been completed and
that DSCA had visited the OSC-I.

Our Response
The OSC-I J3 comments are partially responsive. While noting the DSCA visit, the
OSC-I J3 did not specify the extent of support provided, what actions were taken, and
what is still planned to be accomplished in the future. In addition, the intent behind
recommending DSCA assistance was to provide additional expert resources to aid in
establishing critical OSC-I capabilities. OSC-I appeared in its response to tacitly agree
with the recommendation, but more information is necessary to determine if appropriate
action has been taken to address the identified deficiency. We request that the OSC-I
provide a more detailed response to the final report, in accordance with DoD Directive
7650.3.




                                            15
	
Page Intentionally Blank
	




           16
	
Observation 2. Communication with Key
Iraqi Officials Concerning Future Security
Cooperation and Assistance
Key Iraqi Ministry of Defense and Ministry of Interior (MoI) officials shared a collective
lack of understanding of fundamental security cooperation and security assistance
program particulars, to include the organizational structure of the nascent OSC-I, plans
for OSC-I operations at enduring sites, and specific details about proposed FMS cases.

This occurred because DCG (A&T) had not fully coordinated with key MoD and MoI
officials concerning the U.S. intentions, the OSC-I’s enduring role, or its specific security
cooperation and security assistance operating plans and processes.

As a result, key MoD and MoI leaders lacked sufficient clarity as to U.S. intentions for
post-2011 security cooperation and security assistance programs, and Iraqi officials were
left in a position of being unable to effectively plan for their partnership role.

The lack of mutual clarity and understanding about OSC-I roles and operations could
negatively impact effective execution of important security cooperation and security
assistance programs in 2012, and impede success in building an enduring defense
cooperation relationship with Iraq.

Discussion
Government of Iraq Concerns – Security Cooperation and
Security Assistance Program Processes
In meetings with our assessment team, MoD and MoI officials indicated that they had not
been informed about many security cooperation and security assistance program
particulars, to include the organizational structure of the nascent OSC-I, plans for OSC-I
operations at enduring sites, and specific details about proposed FMS cases.

There was also confusion among MoD and MoI officials regarding whether current
security cooperation and security assistance program processes would change the manner
in which they presently functioned under the new OSC-I, post-2011. In this regard, key
MoD and MoI officials stated that they did not know, but needed to know, how the
OSC - I operating processes would impact continued coordination of security cooperation
and security assistance programs. Iraqi officials did not evince confidence in their ability
to manage those programs without additional support. They indicated they needed more
time and training to become sufficiently experienced with their responsibilities in
applying security cooperation and security assistance program concepts and processes,
specifically, the continued coordination of the FMS program and effective interaction
with certain specific aspects of the FMS program.



                                             17
	
Government of Iraq Concerns – Foreign Military Sales Program
Processes
The Iraqi MoD and MoI officials interviewed, all of whom were engaged in, and
somewhat familiar with, FMS program execution – a primary role of the new OSC-I –
expressed deep concern that USF-I officials had not adequately clarified what
transitioning to an office of security cooperation entailed or how the transition from
USF-I to Chief of Mission authority would affect the current FMS processes. They were
also unaware of specific details regarding the disposition and functions of OSC-I
personnel and security assistance teams at outlying sites where FMS activities would
occur and what these implied for MoD and MoI responsibilities.

Further, Iraqi officials were apprehensive about access to and communication with U.S.
Government officials, current and future FMS case processing and documentation, and
whether the GoI would have to assume additional responsibilities and administrative
program costs that the U.S. Government had been incurring on its behalf. For example,
MoD officials were troubled about the possibility of having to pay the expense of
translating FMS-related documentation. The USF-I had been providing these services,
but quality translation services, especially those performed by individuals with
knowledge of FMS technical terminology, would reportedly be very expensive for MoD
to incur.

MoD and MoI officials stated they were accustomed to communicating all FMS-related
matters directly through the Iraq Security Assistance Mission under USF-I. However, the
Iraq Security Assistance Mission organization, as currently organized, would no longer
exist within the new OSC-I that would be operating under the U.S. Mission to Iraq. Iraqi
MoD representatives opined that they therefore might have to communicate security
assistance matters through their Ministry of Foreign Affairs, thus adding another layer of
bureaucracy to the already slow FMS procurement process. In any event, they did not
have sufficient clarity as to how current and future FMS cases would be managed once
the OSC-I was fully operational. In addition, MoD officials were frustrated, for example,
in not understanding FMS transition details that might impact funds required by their
ministries to support implementation of FMS cases.

Communication with Key Iraqi Officials
The DCG (A&T) command officials concurred that they had not yet fully communicated
with key MoD and MoI officials regarding the OSC-I’s enduring role or its specific post-
2011 security cooperation and security assistance operating processes. They stated that
they had not sufficiently and completely conveyed detailed information about the OSC-I
transition with senior levels of the MoD and MoI because the U.S. and Iraqi governments
had not yet concluded certain bilateral decisions and arrangements that would determine
the OSC-I organizational structure and operations after December 31, 2011.

The DCG (A&T) staff members we spoke to were unaware of any confusion on the part
of Iraqi security officials regarding FMS since they believed they had informed them that
the FMS program procedures would essentially be unchanged. Nevertheless, this



                                           18
	
discrepancy suggests that more attention was needed in communicating to appropriate
Iraqi officials the particulars of the transition that was occurring.

Conclusion
Although USF-I officials believed key leader engagement efforts were well-coordinated
and on track, discussions with MoD and MoI responsible senior officials indicated that
USF-I communication and coordination efforts had not been sufficiently effective to meet
their needs for information regarding the future operation of the security cooperation and
assistance program.
Key MoD and MoI leaders said they lacked sufficient clarity as to U.S. intentions,
adequate knowledge of security cooperation and assistance functions of the post-2011
OSC-I, and a clear vision of any expanded GoI responsibilities they might have to
assume after December 31, 2011. These Iraqi officials did not believe they were able to
effectively plan for their future security assistance partnership role.

The success of building an enduring strategic partnership between the two nations after
December 31, 2011, depends on a clear mutual understanding of respective programmatic
responsibilities. Lack of this clarity could negatively impact building an enduring
security partnership.

Recommendations, Management Comments, and Our
Response
2. Chief, Office of Security Cooperation-Iraq:
   a. Communicate to key Ministry of Defense and Ministry of Interior officials
sufficient details about the United States intentions and plans for security cooperation and
the Office of Security Cooperation-Iraq role and operating processes to ensure their
understanding of and confidence in the future of the program.

Management Comments
Office of Security Cooperation-Iraq J3 comments were forwarded to us in a letter from
the USCENTCOM Inspector General. The OSC-I J3 neither concurred nor non-
concurred with Recommendation 2.a., but stated that, based on Key Leader Engagements
(KLE) from Chief, OSC-I, to OSC-I Section Leads, to Senior Advisor Groups, this action
was complete and that it continues to be refined.

Our Response
The OSC-I J3 comments are partially responsive. We understand the intent and value of
continuing key leader, strategic, and senior level engagements, especially in a dynamic
situation such as Iraq. But we also recognize that similar type engagements, ongoing at
the time of our visit, had not successfully ensured that key MoD and MoI officials
understood and were confident in the collective U.S. security cooperation efforts. The
specific KLEs cited above would appear to have reinforced MoD and MoI officials’
overall understanding of the U.S. security cooperation programs. However, the OSC-I J3


                                            19
	
did not specify the substance or extent of its current engagement plans, details regarding
the specific engagements mentioned, or how they intend to gauge whether MoD and MoI
understand and are confident in U.S. security cooperation efforts. We request that the
OSC-I provide a more detailed response to the final report, in accordance with DoD
Directive 7650.3.

   b. Identify to appropriate Ministry of Defense and Ministry of Interior senior officials
any additional responsibilities that the government of Iraq will have to undertake, after
December 31, 2011, with respect to the Foreign Military Sales program execution, or in
any other relevant area of security assistance and security cooperation.

Management Comments
Office of Security Cooperation-Iraq J3 comments were forwarded to us in a letter from
the USCENTCOM Inspector General. The OSC-I J3 neither concurred nor non-
concurred with Recommendation 2.b., but stated that this has been shared with Iraqi
leaders, such as the Prime Minister, and by the Chief, OSC-I addressing the Iraqi Council
of Representatives in a recent session. Their comments further state that this issue
continues to remain an ongoing action as they manage Iraqi leader expectations and the
Letter of Request and Letter of Acceptance (LOR/LOA) process to ensure the GoI
understands and acknowledges that all costs associated with OSC-I infrastructure and
facilities must be funded.

Our Response
OSC-I J3 comments are partially responsive. While acknowledging the positive steps
taken to clarify responsibilities of executing FMS and other relevant security cooperation
efforts with certain key GoI officials, OSC-I J3 did not highlight the details of its recent
exchanges or any resulting indications, to date, that their actions are having the intended
effect. Nor did it state whether or not OSC-I provided that information to appropriate
MoD and MoI officials or ensured that the Iraqi leaders distributed it themselves. As
such, we still do not know what information was provided or whether Iraqi MoD and MoI
mid-level officials have ever received it. We request that the OSC-I provide a more
detailed response to the final report, in accordance with DoD Directive 7650.3.




                                            20
	
Observation 3. Establishment of Outlying
Office of Security Cooperation – Iraq Sites
OSC-I management cells at outlying OSC-I sites lacked essential details regarding
transition plans.

This occurred because the priority of USF-I actions emphasized the need to prepare bases
for turn over to the GoI and orchestrate unit withdrawals, while DCG (A&T) was
concurrently standing up an enduring OSC-I structure, but without sufficient dedicated
personnel to execute this mission.

As a consequence, forward operating base personnel due to be transitioned to OSC-I sites
were unclear regarding essential planning details applicable to this transition, including
the timely manning and future responsibilities of independent OSC-I management cells. 14

Insufficient timely communication in establishing independent organizational structures
at the OSC-I outlying sites increased the danger of OSC-I not being capable of assuming
full management and support responsibilities in support of U.S. Mission to Iraq by
January 1, 2012.

Applicable Criteria
USF-I Operation Order 11-01, Change 1, May 2011.

Discussion
Military Priorities
Transition to an OSC-I required establishing certain preconditions at multiple levels. 

Due to the uncertain security environment, USF-I made a determined effort to prioritize
	
the establishment of basic life support and force protection programs at forward operating
	
bases that would transition to become OSC-I sites (Figure 3).
	




14
  OSC-I outlying sites are parts of existing forward operating bases within Iraq, outside the perimeter of
the U.S. Embassy, that will be supported by the DoD, from which continuing security assistance and
security cooperation programs, mainly FMS programs, will be conducted. These included: Besmaya,
Kirkuk, Taji, Tikrit, Umm Qasr, and Union III. With the exception of Union III, each site is co-located
within an operating Iraqi Security Forces base.


                                                     21
	
                       Figure 3. Location of Main Operating OSC-I Sites in Iraq

As a result of DoS funding shortfalls, DCG (A&T) faced unexpected operational
challenges and incurred new requirements to support and manage OSC-I sites. For
example, United States Army Corps of Engineers contracts with funded work orders were
being used to adjust and fortify OSC-I site perimeter footprints, which included improved
surveillance systems and interior T-walls. 15 Some additional security improvement
construction projects in support of the new OSC-I outlying sites were expected to
continue well into 2012 – after the departure of USF-I.



15
  A T-wall is a 12 to 15 foot-high, 4-foot wide, and 2 foot thick portable, steel-reinforced concrete wall
used for protection from direct or indirect small arms fire, mortars, rockets and shrapnel.


                                                     22
	
Adequacy of OSC-I Structures and Timeline
Shaped by an uncertain political environment and partially influenced by broader than
anticipated USF-I support to DoS sites, USF-I efforts and the planned DCG (A&T)
transition activities for OSC-I installation management seeded an unintentional
competitive tension for personnel resources and command priorities that became
noticeable by our assessment team immediately after IOC. Existing installation
commanders at forward operating bases that would transition to become OSC-I outlying
sites reported they were still significantly engaged supporting USF-I operations, force
drawdown, and base closure activities well into the transition period intended for
standing-up the OSC-I sites. As operational commanders continued in charge of bases
and maintained continuity with USF-I command priorities, prospective OSC-I site mayor
cells that would soon assume management of all life support operations and other
logistical matters evolved more slowly than planned.

In relation to what was outlined in USF-I plans, delays in OSC-I transition milestones
began to appear as early as IOC on June 1, when OSC-I mayor cells were not adequately
manned and USF-I personnel remained in charge of all installations. The IOC to FOC
transition was now following, by default, a conditions-based timeline. As examples,
OSC-I had not yet established outlying FMS site representatives as a single point of
contact for security assistance, and the mayor cell at Tikrit had only one person assigned.
USF-I and DCG (A&T) were primarily concerned with mitigating immediate risk to
operations, drawdown, and base closure activities while accepting longer-term OSC-I
mission risk because they considered sufficient time was still available to stand up the
OSC-I mayor and Base Operating Support – Iraq (BOS-I) ‘cells.’ DCG (A&T)
consequently accepted delays in establishing independent OSC-I management cells at
outlying sites from that which was outlined in USF-I OPORD 11-01.

Sufficiency of Information Exchange
DCG (A&T) staff initially had limited information exchange with forward operating
bases where the OSC-I sites were to be established. Reportedly, this was to avoid
distracting USF-I personnel who were simultaneously engaged in conducting operations,
troop draw-downs, and base closings. At the time of the assessment team visit in July
2011, a month after IOC, USF-I installation commanders and staff at forward operating
bases that were intended to become future OSC-I sites still lacked sufficient clarity about
essential transition management and support activities, such as:
   •	 determining how OSC-I mayor cells would fund new installation requirements in
      2012
   •	 understanding the objective organizational structure of OSC-I at the Union III
      base headquarters, including appropriate contact information for newly assigned
      subject matter experts
   •	 processing air and ground movement requests, using Chief of Mission aircraft,
      and related personal security detail support
   •	 establishing which GoI entity would take responsibility for consolidating
      distributed equipment shipments for major FMS equipment delivered into the Taji



                                            23
	
      national depot, a critically important ‘service’ that U.S. military personnel
      scheduled to depart have been performing
   •	 ensuring adequacy of medical evacuation resources for security assistance team
      personnel operating at multiple ranges at Besmaya
   •	 identifying who would provide security for FMS land shipments from Umm Qasr
      port to the Taji and Besmaya intended OSC-I sites, and
   •	 understanding the processing times for administrative, operations and logistics
      requests.

DCG (A&T) accepted certain aspects of the assessment team’s observation about limited
information exchange with outlying sites. He directed his staff principals to address the
establishment of management cells at the sites and to ensure that more detailed
information about the site transitions was communicated to dedicated OSC-I personnel.
The immediate DCG (A&T) staff response was to schedule a series of future dedicated
visits to the outlying sites on an undetermined timeline and priority that were to take
place after our departure.

Conclusion
The timely establishment of the OSC-I management organization and site security
infrastructure remains critical for the overarching success of the U.S. Mission to Iraq
security cooperation and security assistance mission. However, USF-I and DCG (A&T)
implementation of priority requirements to conduct operational drawdown and base
closure activities appeared to have led to delays in establishing OSC-I site infrastructure
and management cells. While there were a number of factors that complicated the
orderly transition and stand-up of the outlying OSC-I sites, the DCG (A&T) leadership
was aware of these factors and intended to pursue solutions to mitigate their impact.

The following areas were at risk of not being completed according to the OSC-I stand-up
timetable for 2011:
   •	 development of an independently functioning management organization at
      outlying sites
   •	 completion of security infrastructure at outlying sites
   •	 dissemination of the concept of operations and specific details concerning the use
      of U.S. Mission to Iraq resources and procedures. (This will be discussed in
      greater detail in Observation 4).
   •	 identification and establishment of the critical transportation activities for the
      delivery of FMS equipment to the Iraqi Security Forces.
USF-I OPORD timetables indicated that these actions must be completed by
December 31, 2011, in order for OSC-I to be capable of assuming its full operational
responsibilities.




                                             24
	
Recommendations, Management Comments, and Our
Response
3. Chief, Office of Security Cooperation–Iraq:
   a. Accelerate, reinforce, and broadly disseminate the Office of Security Cooperation-
Iraq concept of operations for performing security cooperation and security assistance in
a non-permissive environment.

Management Comments
Office of Security Cooperation-Iraq J3 comments were forwarded to us in a letter from
the USCENTCOM Inspector General. The OSC-I J3 neither concurred nor non-
concurred with Recommendation 3.a., but simply stated that this was an unclear
recommendation and that they did not understand its intent.

Our Response
OSC-I J3 comments are not responsive. During its visit, the DoD IG team found that the
dissemination of essential USF-I/OSC-I management transition information from DCG
(A&T) to outlying OSC-I sites was clearly insufficient. Senior DCG (A&T) and OSC-I
officials that we interviewed verified this finding and agreed to address it. While at
outlying OSC-I sites, the DoD IG team determined that BOS-I personnel were
unprepared to operate within a new OSC-I structure under Chief of Mission authority
without the support and resources previously provided by USF-I forces because they
were not informed about specific procedures for operating within that new structure
under non-permissive conditions (see “Sufficiency of Information Exchange” section of
this observation’s narrative for specifics). Subsequent to those site visits, senior USF-I
and OSC-I officials indisputably verified these communication shortfalls. During the
DoD IG outbrief to the command, the USF-I Deputy Commanding General for Advising
and Training acknowledged the validity of this observation and directed his staff to
develop a series of town hall meetings in order to clarify installation management
procedures under Chief of Mission authority and to answer the litany of BOS-I questions.
The DoD IG team was reasonably confident that such command-directed action would
occur quickly and, due to the pressing events of transition and downsizing of U.S.
resources, result in both better informed installation management cells and better
posturing of outlying sites for the probable departure of USF-I forces.

Acknowledging the time that has elapsed between DoD IG outbrief and the command's
written response to the draft report, the DoD IG concern remains that outlying sites still
have a need for greater clarity regarding the OSC-I concept for operating in a non-
permissive environment and the procedures for implementing that concept. To date, DoD
IG has received no evidence OSC-I conducted the aforementioned visits or that it
otherwise accelerated the dissemination of necessary information by alternate means.
Lacking such evidence, we cannot determine whether the observed conditions persist.
Now, two plus months after OSC-I replaced USF-I, our concern is that distributed OSC-I
arrangements and associated processes may continue to be unsettled and ambiguous to
those responsible for management at outlying sites. We request the OSC-I provide


                                           25
	
additional information regarding its current concept for operating in Iraq, procedures for
implementing that concept, how and when sites were informed of these details, and the
extent to which sites are now able to comply with procedures.

   b. Provide specific details concerning procedures for the use of U.S. Mission to Iraq
resources to support essential OSC-I activities after December 31, 2011, to include
related procedures for supporting OSC-I site managers and Security Assistance Teams.

Management Comments
Office of Security Cooperation-Iraq J3 comments were forwarded to us in a letter from
the USCENTCOM Inspector General. The OSC-I J3 neither concurred nor non-
concurred with Recommendation 3.b., but stated that, in regards to construction,
facilities, and operations and maintenance, processes were recently finalized through
LOGCAP. The OSC-I J3 also stated that the OSC-I was working on quality control
procedures and that there were procedures in place to ensure site leads understand the
process and disseminate it to the Security Assistance Teams.

Our Response
OSC-I J3 comments are partially responsive. While acknowledging the positive steps
taken to address this situation, the OSC-I J3 did not provide sufficient details regarding
the LOGCAP arrangements, other procedures now in place for the site leads to follow, or
the substance of its plans and milestones for developing quality control procedures for us
to independently verify their assertions. We request that the OSC-I provide a more
detailed response to the final report, in accordance with DoD Directive 7650.3.




                                            26
	
Observation 4. Office of Security
Cooperation – Iraq Standard Operating
Procedures
The OSC-I had not established detailed sufficient standard operating procedures (SOPs) 16
essential to managing its operational and administrative functions while operating from
within the organizational framework of the U.S. Mission to Iraq.

This occurred because:
     •	 USF-I had focused its priorities on the withdrawal of U.S. forces from Iraq and
        had not yet initiated a concerted effort to develop the detailed procedures needed
        to establish an effective and enduring OSC-I.
     •	 USF-I commanders, as well as future OSC-I staff (enduring sites and transition
        team personnel), lacked clarity about the concept of operations for performing
        security cooperation and security assistance in a non-permissive environment and
        needed specific details concerning the use of U.S. Mission to Iraq resources and
        procedures with respect to OSC-I operations.
     •	 The OSC-I lacked key personnel required to perform necessary planning, 

        management, and administrative roles and responsibilities. 

     •	 The division of responsibilities within the OSC-I and, in some cases, between the
        OSC-I and the Embassy had not been clearly defined.
As a result, OSC-I may not be able to effectively assume its mission post-2011when it
must be able to operate from within the organizational framework of the U.S. Mission to
Iraq.

Applicable Criteria
DoD Directive 5132.03, “DoD Policy and Responsibilities Relating to Security
Cooperation,” October 24, 2008.

Background
USF-I supported the establishment of OSC-I by issuing some plans and guidance and
committing specialized functional support staff to meet the myriad requirements for
establishing the new office. However, as of July 2011, the guidance and staff resources
had focused on activities associated with standing up the OSC-I but had not developed



16
  The use of SOPs provides: institutional knowledge of procedures, continuity of processes, instructions on
the performance of routine or repetitive activity, and a quality assurance system for consistent quality
integrity or desired end-result in both work performance and as evidence of compliance with prescribed
policies and requirements. The use of SOPs also facilitates training of new personnel by providing written
processes and procedures that reflect the continuity of operations and experiences gained.



                                                    27
	
the SOPs necessary for effective and sustainable management of the OSC-I after its
establishment.

Discussion
Development of Standard Operating Procedures
As USF-I entered its final phase of transition prior to its projected December 31, 2011,
end of mission, it was increasingly important to develop and implement all necessary
management SOPs that the OSC-I would need to follow while operating from within the
organizational framework of the U.S. Mission to Iraq in post-2011.

At the time of the assessment team visit, the OSC-I was operating under and with the
support of a large, well-resourced, military umbrella organization – USF-I. But after
USF-I departs, the OSC-I will fall under U.S. Mission to Iraq authority and operate under
its organizational structure. By December 31, 2011, the OSC-I will not be able to borrow
from USF-I resources to fill any shortfalls or gaps in manning or, in some cases, funding.
It will need to have processes and procedures in place that ensure it can effectively
accomplish its mission while operating from within the organizational framework of the
U.S. Mission to Iraq.

Because of the unique complexity of the OSC-I mission (such as multi-site FMS case
management and support in a non-permissive environment), standardized functional
OSC-I procedures were needed that addressed both internal administrative (such as
budgeting and contracting) and operational (a Joint Operations Center) requirements. In
addition, SOPs were required to specify administrative and operational practices and
procedures for functioning within the U.S. Mission to Iraq.

The OSC-I did not have SOPs that addressed crucial, mission-related administrative,
logistical, and operational functions, such as:
     •	 administrative responsibilities performed by OSC-I as an integral part of the U.S.
        Mission to Iraq management support staff
     •	 budgeting for operational needs (e.g. identifying and collecting cost data, funding
        sources, any authorization needs, etc.)
     •	 cost sharing for DoD and DoS sites and support services (such as the Logistics
        Civil Augmentation Program [LOGCAP] IV contract) 17
     •	 procedures to ensure accomplishment of its resource oversight responsibilities
        (e.g., funding, equipping, facilities, contracts, etc.)
     •	 operational processes and procedures for the OSC-I Joint Operations Center that
        would serve as its command and control hub for such activities as: remote site


17
  LOGCAP is a program that provides worldwide logistics and base and life support services in
contingency environments, and is currently providing most base and life support in Iraq. LOGCAP IV
refers to a specific LOGCAP contract administered by DoS, with contract management assistance from
DoD, that was negotiated to provide basic life support services, such as billeting, and possibly other
security-related services, such as security guard personnel, which could involve cost sharing arrangements
and agreements between DoD, DoS, and other agencies.


                                                    28
	
      personnel accountability/tracking; mission movement coordination and
      monitoring; and, security assistance and cooperation mission status monitoring
      and reporting
   •	 assistance with passport and visa processing for International Military Education
      and Training students
   •	 procedures for processing air and ground movement requests between OSC-I
      specific sites using Chief of Mission aircraft and personal security details.

Personnel Resources to Develop Standard Operating
Procedures
The OSC-I has received authorization for 157 DoD designated staff positions to perform
the planning and management functions necessary to operate a fully functional security
cooperation organization, to include overseeing FMS case implementation. In addition,
the organization was expected to have a contingent of three contracting staff personnel to
provide contracting expertise and to procure services and commodities for the OSC-I.

However, as of late July 2011, the OSC-I was not yet fully staffed with, in some cases,
the personnel needed to perform key responsibilities (e.g., contracting).

Further, interaction between the OSC-I and the U.S. Mission to Iraq staff was mainly
focused on standing up the OSC-I, especially the outlying OSC-I sites. Though U.S.
Mission to Iraq would ultimately assume OSC-I mission responsibility, coordination
between them regarding their respective post-2011 roles and responsibilities had not
sufficiently taken place. For example, budgeting for DoD future costs required an
understanding of expected cost sharing under the LOGCAP IV contract; however, there
had been no communication between responsible DoD and DoS staff on this key issue,
which could lead to shortfalls in either department’s resources.

Development of essential SOPs to support OSC-I operational and administrative duties
had not been initiated. Further, the DCG (A&T) staff members responsible for
coordinating administrative or operational issues did not indicate that they had a
comprehensive plan, with a timetable, for developing these essential SOPs.

Limited OSC-I staffing had contributed to an inability to move forward with SOP
preparation. Procedures for developing important budget submissions to U.S. Mission to
Iraq had not been formally documented or recorded, for example.

During the final transition months leading to December 2011, there would have been
increasingly fewer USF-I staff personnel supporting the OSC-I development under DCG
(A&T) authority. USF-I staff already had begun to drawdown, a process which would
continue at an increasing rate until USF-I ceased to exist by the end of 2011. None of the
knowledgeable USF-I staff (e.g. J35), which had helped to stand up the OSC-I, will
remain to assist in addressing future matters.

Additional temporary duty personnel resources may need to deploy from outside the
country to provide the needed management expertise to assist in developing or


                                            29
	
completing the necessary SOPs. However, such a team needs to be dispatched to Iraq
promptly in order to complete its work as quickly as possible. The Defense Security
Cooperation Agency, for example, particularly in the form of its Defense Institute of
Security Assistance Management, routinely deploys mobile training teams into Iraq and
has this personnel resource capability.

Conclusion
It is imperative to ensure that the respective DoD and DoS roles and responsibilities for
performing administrative and operational functions be clearly defined given the complex
challenges created by implementing the new OSC-I organizational context, including its
relationship with the Embassy. Although FOC for the OSC-I was reached on October 1,
2011, USF-I reported that not all essential SOPs had been established by that date.

OSC-I may not be able to effectively accomplish its mission if processes and procedures
are not in place through approved and issued SOPs. The lack of internal and external
procedural guidance could result in ineffective coordination with the U.S. Mission to
Iraq, security assistance and cooperation program implementation shortfalls, and a
possible loss of oversight and control of funds and activities. 18

Recommendations, Management Comments, and Our
Response
4. Chief, Office of Security Cooperation – Iraq:
   a. Develop administrative and operational standard operating procedures for the
Office of Security Cooperation – Iraq that includes interagency operations within the
overall framework of U.S. Mission to Iraq authority and responsibility.

Management Comments
Office of Security Cooperation-Iraq J3 comments were forwarded to us in a letter from
the USCENTCOM Inspector General. While concurring with Recommendation 4.a., the
OSC-I J3 simply stated that their efforts in this regard remain “a work in progress.”

Our Response
The OSC-I J3 comments are partially responsive. While management agreement with the
recommendation was encouraging, we request OSC-I provide information on when they
plan to issue complete SOPs; then, once they are completed, we request that they provide
us copies of supporting documentation showing when and how they were distributed in
order that we may determine if appropriate action has been taken to address the identified
deficiency, in accordance with DoD Directive 7650.3.




18
  See DoDIG Report No. D-2011-095/DOSIG Report No. AUD/CG-11-42, “Afghan National Police
Training Program: Lessons Learned During the Transition of Contract Administration,” August 15, 2011,
as an example of such shortfalls and their outcomes.


                                                  30
	
  b. Request that the Director, Defense Security Cooperation Agency, deploy to Iraq an
appropriately resourced team as soon as practicable to support accelerated development
and completion of Office of Security Cooperation – Iraq standard operating procedures.

Management Comments
Office of Security Cooperation-Iraq J3 comments were forwarded to us in a letter from
the USCENTCOM Inspector General. The OSC-I J3 neither concurred nor non-
concurred with Recommendation 4.b., simply stating that DSCA had visited and that
there was nothing to accelerate.

Our Response
The OSC-I J3 comments are partially responsive. While acknowledging the DSCA visit,
the OSC-I J3 did not specify the extent of support provided, what actions were taken, and
what is still planned to be accomplished in the future. In addition, the intent behind
recommending DSCA assistance was to provide additional expert resources to aid in
establishing critical OSC-I capabilities. We request that the OSC-I provide a more
detailed response to the final report in order that we may determine if appropriate action
has been taken to address the identified deficiency, in accordance with DoD Directive
7650.3.




                                            31

Page Intentionally Blank
	




           32
	
Appendix A. Scope, Methodology, and
Acronyms
We conducted this assessment from April 2011 to November 2011 in accordance with the
standards published in the Quality Standards for Inspection and Evaluation. We planned
and performed the assessment to obtain sufficient and appropriate evidence to provide a
reasonable basis for our observations and conclusions, based on our assessment
objectives.

In the U.S. we met with personnel from the Defense Security Cooperation Agency, the
Office of the Under Secretary of Defense for Acquisition, Technology, and Logistics; the
Office of the Under Secretary of Defense for Policy; the Office of the Under Secretary of
Defense (Comptroller)/Chief Financial Officer; Joint Chiefs of Staff J1 and J5
Directorates; Security Cooperation Reform Task Force; and U.S. Central Command. In
Iraq, we visited Victory Base Complex; Forward Operating Base Union III; the U.S.
Embassy in Baghdad; and Contingency Operating Sites Besmaya, Kirkuk, and Taji. At
these locations we met with U.S. and Iraqi leaders and managers at various levels,
ranging from general officers, to staff officers, to senior Embassy personnel involved and
responsible for training, planning, and implementation of security assistance and security
cooperation transition activities in Iraq.

We reviewed documents such as Federal Laws and regulations, including the National
Defense Authorization Act, Chairman of the Joint Chiefs of Staff instructions, DoD
directives and instructions, and appropriate USCENTCOM and USF-I guidance
applicable to the assessment objectives. We also collected and reviewed supporting
documentation.

Use of Computer-Processed Data
We did not use computer-processed data to perform this assessment.

Use of Technical Assistance
We did not use Technical Assistance to perform this assessment.

Acronyms Used in this Report
The following is a list of the acronyms used in this report.

ACSA                     Acquisition and Cross Servicing Agreement
AECA                     Arms Export Control Act
CTFP                     Combating Terrorism Fellowship Program
DSCA                     Defense Security Cooperation Agency
DoS                      Department of State
DCG (A&T)                USF-I Deputy Commanding General for Advising and Training
DCCEP                    Developing Country Combined Exercise Program
DCS                      Direct Commercial Sales


                                             33
	
EUM         End-use Monitoring
E-IMET      Extended-International Military and Education Training
FAA         Foreign Assistance Act
FMFP        Foreign Military Finance Program
FMS         Foreign Military Sales
FOAA        Foreign Operations and Appropriations Act
FOC         Full Operating Capability
GCC         Geographic Combatant Command
GoI         Government of Iraq
IOC         Initial Operating Capability
IMET        International Military Education Training
ICP         Iraq Country Plan
ISF         Iraqi Security Forces
JCET        Joint Combined Exchange Training
LOA         Letter of Offer and Acceptance
LOGCAP      Logistics Civil Augmentation Program
MAP         Military Assistance Programs
MILDEP      Military Department
MoD         Ministry of Defense
MoI         Ministry of Interior
MET         Mobile Education Team
MTT         Mobile Training Team
NDAA        National Defense Authorization Act
ODA         Office of Defense Attache
OSC-I       Office of Security Cooperation – Iraq
OND         Operation New Dawn
OPORD       Operations Order
PME         Professional Military Education
RSI         Rationalization, Standardization, and Interoperability
SAMM        Security Assistance Management Manual
SAT         Security Assistance Team
SOP         Standard Operating Procedure
TCP         Theater Campaign Plan
USCENTCOM   U.S. Central Command
U.S.C.      United States Code
USF-I       United States Forces – Iraq
USG         United States Government




                              34
	
Appendix B. Summary of Prior Coverage
During the last three years, Congress, the Commission on Wartime Contracting in Iraq
and Afghanistan, the Government Accountability Office, the Department of Defense
Inspector General, and the Department of State Inspector General issued reports
discussing topics related to the transition of the security assistance mission from the DoD
to the Department of State.
Commission on Wartime Contracting reports can be accessed over the internet at
www.wartimecontracting.gov. Unrestricted Government Accountability Office reports
can be accessed over the internet at www.gao.gov. Unrestricted DoDIG reports can be
accessed over the internet at http://www.dodig.mil/audit/reports or at
http://www.dodig.mil/spo/reports. Department of State Inspector General reports can be
accessed over the internet at http://oig.state.gov.
Some of the prior coverage we used in preparing this report included:

Congressionally Initiated Reports
Iraq: The Transition From a Military Mission to a Civilian-Led Effort, A Report to the
Members of the Committee on Foreign Relations, United States Senate, One Hundred
Twelfth Congress, First Session, January, 2011.

Commission on Wartime Contracting in Iraq and
Afghanistan
CWC Special Report 4, Follow-up Report on Preparing for Post – 2011 U.S. Presence in
Iraq, “Iraq – a forgotten mission?’” March, 2011.

CWC Special Report 3, Special Report on Iraq Transition Planning, “Better planning for
Defense-to-State transition in Iraq needed to avoid mistakes and waste,” July 2010.

GAO
GAO-11-774, “IRAQ DRAWDOWN: Opportunities Exist to Improve Equipment
Visibility, Contractor Demobilization, and Clarity of Post-2011 DoD Role,” September
2011.

GAO-11-419T, “FOREIGN OPERATIONS: Key Issues for Congressional Oversight,”
March 2011.

GAO-09-294SP, “IRAQ: Key Issues for Congressional Oversight,” March 2009




                                            35
	
Department of Defense Inspector General
SPO-2011-008, Special Plans and Operations, “Assessment of Planning for Transitioning
the Security Assistance Mission in Iraq from Department of Defense to Department of
State Authority,” August 25, 2011

Department of State Inspector General
MERO-I-11-08, Middle East Regional Office, “Department of State Planning for the
Transition to a Civilian-led Mission in Iraq,” May 2011.

MERO-A-09-10, Middle East Regional Office, “Performance Audit of Embassy
Baghdad’s Transition Planning for a Reduced United States Military Presence in Iraq,”
August 2009.




                                          36
	
Appendix C. Glossary
This appendix provides definitions of terms used in this report.

Base Transitions to the Department of State (DoS) or the Office of
Security Cooperation-Iraq (OSC-I) in Iraq. According to the Final Edition of the
USF-I Base Transition Smartbook, May 2011, all base transitions are coordinated with and
accomplished through the Government of Iraq (GoI) Prime Minister’s Receivership
Secretariat. The Receivership Secretariat is responsible for the disposition of the location
after receiving it from U.S. Forces.

In a base transition to DoS or OSC-I, it is a type of base transition in which U.S. Forces
relinquishes control of a base or portion of a base to DoS or OSC-I as part of the enduring
U.S. Mission to Iraq. This type of transition will also take place through the Receivership
Secretariat who will turn over the property to DoS or OSC-I based on land use
agreements between the United States and the GoI. U.S. Forces property will not be
turned over directly to the DoS or OSC-I.

Foreign Military Sales Program. The Foreign Military Sales (FMS) Program is
that part of security assistance authorized by the Arms Export Control Act and conducted
using formal agreements between the U.S. Government and an authorized foreign
purchaser or international organization.

Those agreements, called Letters of Offer and Acceptance (LOA), are signed by both the
U.S. Government and the purchasing government or international organization. The
LOA provides for the sale of defense articles and/or defense services (to include training)
usually from DoD stocks or through procurements under DoD-managed contracts. As
with all security assistance, the FMS program supports U.S. foreign policy and national
security objectives.

DoD Financial Management Regulation Volume 15, Definitions, April 2002 (current as
of July 17, 2008), defines a FMS case as a U.S. DoD LOA and associated supporting and
executing documents.

Non-permissive environment. Joint Chiefs of Staff, “Department of Defense
Dictionary of Military and Associated Terms,” Joint Pub 1-02, defines permissive
environment as an: “Operational environment in which host country military and law
enforcement agencies have control as well as the intent and capability to assist operations
that a unit intends to conduct.” This observation cites this definition to explain a non-
permissive environment as one in which some level of lawlessness or heightened risk is
assumed due to a breakdown in host country military and law enforcement capability.

Security cooperation activity. Joint Chiefs of Staff, “Department of Defense
Dictionary of Military and Associated Terms,” Joint Pub 1-02, defines a security
cooperation activity as “Military activity that involves other nations and is intended to


                                             37
	
shape the operational environment in peacetime. Activities include programs and
exercises that the US military conducts with other nations to improve mutual
understanding and improve interoperability with treaty partners or potential coalition
partners. They are designed to support a combatant commander’s theater strategy as
articulated in the theater security cooperation plan.”

Withdrawal from Iraq. In the “Agreement Between the United States of America
and the Republic of Iraq On the Withdrawal of United States Forces from Iraq and the
Organization of Their Activities during Their Temporary Presence in Iraq,” effective
January 1, 2009, it states in Article 24, “Withdrawal of the United States Forces from
Iraq,” that “All the United States Forces shall withdraw from all Iraqi territory no later
than December 31, 2011.”




                                             38
	
Appendix D. Office of Security Cooperation
– Iraq Security Assistance and Security
Cooperation Functions
Introduction
This Appendix is divided into three sections. The first distinguishes security assistance
as a subset of the broader security cooperation activities. The second outlines the
legislated functions that security cooperation organizations are authorized to perform.
The final section lists and defines the specific security assistance and cooperation
functions that the Office of Security Cooperation – Iraq was designed to perform.

Security Assistance as a Subset of Security Cooperation
Joint Publication 1-02, Department of Defense Dictionary of Military and Associated
Terms, 19 specifically defines security assistance as a sub-set of the broader security
cooperation activities:

           Security Assistance — Group of programs authorized by the Foreign
           Assistance Act of 1961, as amended, and the Arms Export Control Act of
           1976, as amended, or other related statutes by which the United States
           provides defense articles, military training, and other defense-related
           services by grant, loan, credit, or cash sales in furtherance of national
           policies and objectives. Security assistance is an element of security
           cooperation funded and authorized by Department of State to be
           administered by Department of Defense/Defense Security Cooperation
           Agency.

           Security Cooperation — All Department of Defense interactions with
           foreign defense establishments to build defense relationships that promote
           specific U.S. security interests, develop allied and friendly military
           capabilities for self-defense and multinational operations, and provide
           U.S. forces with peacetime and contingency access to a host nation.

It also defines those DoD elements responsible for managing security assistance and
security cooperation functions in a foreign country as:

           Security Cooperation Organization (SCO) — All Department of
           Defense elements located in a foreign country with assigned
           responsibilities for carrying out security assistance/cooperation
           management functions. It includes military assistance advisory groups,
           military missions and groups, offices of defense and military cooperation,


19
     Latest edition: November 8, 2010 (As Amended Through 15 October 2011).


                                                   39
	
         liaison groups, and defense attaché personnel designated to perform
         security assistance/cooperation functions.

The Defense Security Cooperation Agency (DSCA) outlines security assistance as the
twelve major programs in Table C1.T1 of DoD 5105.38-M, Security Assistance
Management Manual (SAMM). While seven of these Foreign Assistance Act (FAA) and
Arms Export Control Act (AECA)-authorized programs are administered by DoD,
specifically by DSCA, they remain under the general control of the Department of State
as components of U.S. foreign assistance. The seven programs DoD has responsibility
for administering are:

     •   Foreign Military Sales
     •   Foreign Military Construction Services
     •   Foreign Military Sales Credit
     •   Leases
     •   Military Assistance Program (MAP)
     •   International Military Education and Training (IMET)
     •   Drawdown

Statutory Security Cooperation Office Functions 20
The SCO operates within an environment that must take into account the political aspects
of the U.S. national security and foreign policy goals and how they mesh with the host
country goals and policies. It also has an obligation to share benefits of security
cooperation for both the United States and host country within the highly competitive
global environment. Most of its relationships are with the host country military where it
is working to secure mutually supporting actions that support interoperability,
modernization and sustainability to strengthen the host country defense capabilities. The
overall goal of security cooperation activities is to tie these dissimilar issues together for
the common purpose of meeting U.S. national security goals.

Title XII, Section 515, Foreign Assistance Act of 1961, as amended, provides for the
President to assign members of the U.S. Armed Forces to a foreign country. It is the
governing legislation on what functions those military personnel are authorized to
perform, which include:

     1. equipment and services case management
     2. training management
     3. program monitoring



20
  This section and the preceding paragraph are primarily derived from: Security Cooperation Organization
and Responsibilities (August 2010) briefing and briefing notes, Defense Institute of Security Assistance
Management, http://www.disam.dsca.mil/RESEARCH/presentations.asp, accessed on Nov 4, 2011, Slides
9 – 22 & 54.




                                                  40
	
   4.		 evaluation and planning of the host government’s military capabilities and 

        requirements
	
   5.		 administrative support
   6.		 promoting rationalization, standardization, interoperability, and other defense
        cooperation measures, and
   7.		 liaison functions exclusive of advisory and training assistance.

In performing the first function, equipment and services case management, the SCO
serves as a transmission conduit between the case manager and the host nation. In this
regard, the SCO assists the host nation to delineate its requirements in terms of
equipment and services. After that, it serves as the facilitator between the United States
and host nation to fill those requirements. Notably, the SCO is involved in case
management, but its members are not case managers.

For the second function, training management, SCO personnel are only authorized to
manage training, i.e. advise and assist in determining and coordinating host nation
training requirements; bring in mobile training teams, Security Assistance Teams, etc.;
and oversee the conduct of the training. Security assistance personnel do not have
authority to actually conduct that training. In fact, Congress specifically limits the
advisory and training assistance conducted by military personnel assigned under Section
515 authority to an absolute minimum. It is the sense of the Congress that such advising
and training assistance activities shall be provided primarily by other personnel who are
not assigned under Section 515 and who are detailed for limited periods to perform
specific tasks, normally covered by Foreign Military Sales cases.

The SCO role in the third function, program monitoring, is a very important one that has
several aspects. One of the most important aspects involves working with the host
country to advise on the best way to integrate the equipment, services, and training they
already possess with equipment they are buying and what they are contemplating buying
to best meet that country’s defense objectives. In the process, SCO should promote
interoperability of all systems to further host nation forces combined operations
capabilities with U. S. forces. The SCO also supports U. S. defense industries’ marketing
efforts.

End-use monitoring (EUM) of U.S. origin equipment is another key program monitoring
aspect. EUM is not a specific requirement of the Foreign Assistance Act but came later
as a provision in the Arms Export Control Act. In some cases EUM involves monitoring
the use of critical technology or other selected items, which may require the SCO to
conduct periodic inventories and inspections of specific items that the United States has
sold, transferred, or leased.

Finally, program monitoring also entails providing advice and information on methods of
disposal and/or transfer of the items at the end of the useful life of an item in the host
nation’s inventory and overseeing U.S. leased equipment. The U.S. Navy, for example,
leases many of its ships, which it prefers over “mothballing” them.




                                            41
	
The fourth major SCO function is to evaluate host country military capabilities. First, in
the role as advisor to the senior military and defense personnel in a country, the SCO has
an opportunity to advise the host country personnel on developing strategies of
engagement with the United States that will support mutual foreign policy objectives.
Second, the SCO provides information to U.S. decision makers on host country desires
and how they meet the foreign policy objectives in the U.S. national security strategy.

In regards to the fifth function, administrative support, the SCO is authorized to perform
a range of administrative support functions. These may include, but are not limited to:

   •   Budget planning and execution
   •   Accountability for property
   •   Maintenance of vehicles
   •   Personnel actions (e.g., fitness reports, awards, pay)
   •   Housing and Quality of Life
   •   Country clearances and U.S. visitor support
   •   Managing communication and automation equipment
   •   Arranging for postal services and military support flights and cargo.

The SCO can provide this type of normal administrative support for personnel assigned
in-country so long as that support does not reach a level that would require additional
administrative personnel. Alternately, if the support for non-security assistance personnel
requires additional administrative personnel, operations and maintenance or other funded
billets must be provided.

The sixth function, Rationalization, Standardization, and Interoperability (RSI), is
another major SCO function serving U.S. interests. Rationalization is any action that
increases allied force effectiveness through more efficient or effective use of committed
resources. It entails consolidation, reassignment of national priorities to higher alliance
needs, standardization, specialization, mutual support or improved interoperability, and
greater cooperation. It applies to both weapons and/or materiel resources and non-
weapons military matters.

Standardization is the development and implementation of concepts, doctrines,
procedures, and designs in order to achieve and maintain the compatibility,
interchangeability or commonality which is necessary to attain the required level of
interoperability, or to optimize the use of resources, in the fields of operations, materiel,
and administration.

Interoperability is a property referring to the ability of diverse systems and organizations
to work together (inter-operate). The term is often used in a technical systems
engineering sense, or alternatively in a broad sense, taking into account social, political,
and organizational factors that impact system to system performance.

SCOs play a key role in implementing U.S. RSI policy. This policy indicates
interoperability with partner nations is in the best interests of the United States, but


                                              42
	
recognizes the degree of international RSI that is subject to financial, legal, technical, and
policy considerations. While acknowledging that achieving operational standardization
on a worldwide basis so that U.S. forces may operate effectively as possible with forces
of all allied, coalition, and friendly nations would be ideal, policy states that it should not
take precedence over standardization on a regional level, unless doing so is clearly in the
national interest.

Finally, to perform the functions just discussed the SCO serves a seventh liaison function
between the U.S. Department of Defense and military department activities, the Secretary
of Defense, and the Combatant Commander to the U.S. ambassador and the host country
defense forces. Though Sec 515 strictly limits advisory and training assistance activities
by military personnel assigned under that section to an absolute minimum, the SCO may
perform other duties assigned by Department of Defense, the combatant command or
appropriate military department, and the ambassador. For instance, the SCO can play a
very important role when the United States is requested or directed to assist in disaster
relief in a country. Appropriate members of the SCO also have additional duties of
search and rescue assigned in the case a U.S. aircraft, vessel, or person becomes lost or
missing.

These SCO mandated functions are performed by working with the senior military and
civilian defense personnel in the host country. While discouraging SCO personnel from
providing operational advice or training, it does allow this to be done by special teams.
Overall, the SCO impacts U.S. national security objectives by:

    •    providing a basis for U.S. access
    •    impacting host nation decision-makers
    •    strengthening host nation self-defense
    •    improving interoperability with U.S. forces
    •    strengthening host nation leadership and professional skills, and
    •    furthering U.S. economic interests.

With this legislative basis, OSC-I was designed to perform specific security assistance
and security cooperation functions, which are listed in figure D-1 and defined in the next
two sections.

                              OS
                              OSCC Activities                          O PR
                                                                       OPR        Action
                                                                                  Action
     1     Acquisition and Cross Servicing Agreements                  DoD         OSC
     2     Acquisition and Cross Servicing Agreements
           (Significant Military Equipment)                            DoD         OSC
     3     Aviation Leadership Program                                 DoD         OSC
     4     Building Partner Capacity of Foreign Militaries             DoD         OSC
     5     Dept of Defense Regional Centers for Security
           Studies                                                     DoD         OSC
     6     Developing Country Attendance at Bilateral &
           Multilateral Meetings                                       DoD         OSC


                                              43
	
                               OSC Activities                                OPR            Action
     7      Developing Country Combined Exercise Program                      DoD            OSC
     8      Direct Commercial Sales                                          DSCA            OSC
     9      Drawdowns                                                         DoD            OSC
     10     Embedded and Mobile Training                                    DoD/DoS          OSC
     11     End Use Monitoring                                               DSCA            OSC
     12     Excess Defense Articles                                          DSCA            OSC
     13     Exercise-Related Construction                                     DoD            OSC
     14     Foreign Military Construction Services                           DSCA
     15     Foreign Military Financing Program                               DSCA            OSC
     16     Foreign Military Sales                                           DSCA            OSC
     17     Intelligence Capacity Building                                  DoD/DoS         ODA*
     18     Intelligence Sharing                                            DoD/DoS         ODA*
     19     International Military Education and Training                    DSCA            OSC
     20     Leases                                                           DSCA
     21     Joint Combined Exercise Training                                  DoD            OSC
     22     Medical Team Deployments                                          DoD            OSC
     23     Military Academies                                                DoD            OSC
     24     Military and Professional Exchange Program                        DoD            OSC
     25     Multi-lateral Interoperability Program                            DoD            OSC
     26     Multi-lateral Planners Conference                                 DoD            OSC
     27     Security Force Assistance Activities                              DoD            OSC
     28     Senior War College                                                DoD            OSC
     29     Special Operations Support to Combat Terrorism                    DoD            OSC
     30     Third Country Transfers                                          DSCA            OSC
     31     Training and Doctrine Conferences and Working
            Groups                                                             DoD           OSC
             Figure D-1. OSC-I Designed Security Assistance and Cooperation Activities
        *OSC-I defers to the Office of the Defense Attaché in matters regarding intelligence
        sharing, intelligence capacity building, intelligence exercises, joint/combined operations
        and other intelligence activities that may be conducted by other agencies, services or
        departments. However, due to the sensitivity of the relationship between the GoI and the
        U.S.Government, collaboration and coordination between the Office of the Defense
        Attaché and OSC-I is maintained at the most robust level. [ Note: These particular
        Intelligence Capacity Building and Intelligence Sharing activities are discussed in other
        publications and documents and are not defined within this Appendix.]

OSC-I Design Security Assistance Functions 21
Of the activities listed above, there are primary security assistance activities that are
required to be conducted post-2011, as ongoing FMS cases will carry on through the



21
  Security Assistance program definitions derived from: The Management of Security Cooperation,
Defense Institute of Security Assistance Management “Greenbook”, 30th Edition, January 2010, pp. 1-1 –
1-6.



                                                   44
	
termination of the current security agreement. These will require continuing support for
administration, management, training, fielding and other related security assistance tasks.
In addition, the United States Forces – Iraq (USF-I) Operations Order 11-01, Annex V,
Appendix 4 indicates that the OSC-I was to have assumed responsibility for performing
all security assistance related functions by its initial operating capability (IOC) date of
June 1, 2011. The following lists these primary Security Assistance activities.

Foreign Military Sales
Foreign Military Sales is a non-appropriated program administered by DSCA through
which eligible foreign governments purchase defense articles, services, and training from
the U.S. Government (USG). The purchasing government normally pays all costs
associated with a sale. There is a signed government-to-government agreement, normally
documented on a Letter of Offer and Acceptance between the USG and a foreign
government. Each LOA is commonly referred to as a “case” and is assigned a unique
case identifier for accounting purposes.

Under FMS, military articles and services, including training, may be provided from DoD
stocks (Section 21, AECA) or from new procurement (Section 22, AECA). If the source
of supply is new procurement, on the basis of having an LOA which has been accepted
by the foreign government, the USG agency or Military Department (MILDEP) assigned
cognizance for this case is authorized to enter into a subsequent contractual arrangement
with U.S. industry in order to provide the article or service requested.

Foreign Military Construction Services
Foreign military construction services is a non-appropriated program administered by
DSCA and authorized by Section 29, AECA, to include the sale of design and
construction services by the USG to eligible purchasers. The construction sales
agreement and sales procedures generally parallel those of FMS and are usually
implemented by the MILDEP civil engineering agencies.

Foreign Military Financing Program
The Foreign Military Financing Program (FMFP) is an appropriated program
administered by DSCA that has undergone a variety of substantive and terminological
changes over the years. At present, the program consists of congressionally appropriated
grants and loans which enable eligible foreign governments to purchase U.S. defense
articles, services, and training through either FMS or direct commercial sales (DCS).
Foreign military sales credit is authorized under the provisions of Sections 23 and 24,
AECA, and originally served to provide credit (loans) as an effective means for easing
the transition of foreign governments from grant aid, e.g., Military Assistance Program
and International Military Education and Training (IMET), to cash purchases.

Prior to FY 1989, this financing program was variously identified as the Foreign Military
Sales Credit Program or the Foreign Military Sales Financing Program. In the FY 1989
Foreign Operations Appropriations Act (FOAA), Congress introduced a new title, the
FMFP, and the forgiven loan/forgiven credit component of the program was identified as
FMFP grants to distinguish them from repayable direct FMFP loans. Also, the terms


                                            45
	
non-repayable loans or non-repayable credits are often used by various security
assistance organizations (including DSCA) in place of the term “FMFP grants.”

In FY 1990, the Military Assistance Program was formally merged with the FMFP as
Congress adopted an administration proposal for integrating all MAP grant funding into
the appropriations account for the FMFP. This appropriated program was administered
by DSCA. No MAP funds have been appropriated for subsequent FYs, and there is no
interest in seeking any such funds for the future. This legislative change, therefore, had
the dual effect of causing existing MAP-funded programs to lose their former identity
and become FMFP-funded programs and establishing the FMFP as the major U.S.
financing program for the acquisition of U.S. defense articles and services by foreign
governments.

MAP continues to be identified as a current security assistance program because the
MAP provided articles remain throughout the world with the continued requirements for
EUM, return to the USG when no longer needed, and any proceeds from a sale to a third
country or scrapping being returned to the USG.

Beginning in FY 1992, the Federal Credit Reform Act of 1992 (P.L. 101-508) changed
the method of accounting and budgeting for all government loans, including FMFP loans
issued under the AECA. This legislation provides a more accurate portrayal of the true
cost of loans by providing new budget authority only for the subsidy element of the loan
program and is the basis for the establishment of two new financial accounts:

   •	 The first contains only the FMFP grant portion of the program administrative
      costs.
   •	 The second account provides the budget authority needed to fund the subsidy
      element of the proposed loan programs.

While there are previously authorized FMFP loans still being repaid to the USG, this loan
element is seldom used; the FMFP grant element (no repayment) is the norm.

Leases
Chapter 6, of the AECA, authorizes the president to lease defense articles to friendly
governments or international organizations for up to five years (renewable). This non-
appropriated program is administered by DSCA. The law allows the lease of defense
articles only for compelling foreign policy or national security reasons, and stipulates that
the full cost of the lease, with some exceptions, must be borne by the recipient.
Furthermore, leased articles must not be needed for U.S. public use during the lease
period, and the United States retains the right to terminate the lease at any time.

For the recipient country, leases may be cheaper than purchasing the article outright, and
they provide a convenient vehicle for obtaining defense articles for temporary use.
Leases are executed through a lease agreement, with an associated FMS case to cover
repair, training, supply support and/or transportation, if required.



                                             46
	
International Military Education and Training
The International Military Education and Training program provides grant financial
assistance for training in the United States and, in some cases, in overseas facilities to
selected foreign military and civilian personnel. In earlier years, grant aid training of
foreign military personnel was funded as part of the MAP appropriation. Starting with
FY 1976, a separate authorization for IMET was established in Section 541, FAA. This
appropriated program is administered by DSCA. Although historically a relatively
modest program in terms of cost, both the president and Congress attach significant
importance to this program. The recipient countries, likewise, are heavily reliant on this
grant program and, in many cases, this program serves as the only method to receive
training from the U.S. military.

At a time of declining defense and foreign aid budgets, IMET advances U.S. objectives
on a global scale at a relatively small cost. In many countries, having a core group of
well-trained, professional leaders with firsthand knowledge of America will make a
difference in winning access and influence for our diplomatic and military
representatives. Thus, a relatively small amount of IMET funding will provide a return
for U.S. policy goals, over the years, far greater than the original investment.

In 1980, Section 644(m)(5), FAA, was amended to authorize IMET tuition costing in
terms of the additional costs that are incurred by the USG in furnishing such assistance.
Section 21(a)(1)(C), AECA, was also amended to allow IMET recipients to purchase
FMS training on an additional cost basis. The practical effects of these changes were to
substantially reduce tuition costs for IMET funded students, and thereby increase the
amount of training an eligible country can obtain with its IMET grant funds and through
FMS purchases.

A new IMET initiative was introduced in the FY 1991 FOAA when Congress adopted a
Senate proposed IMET earmark of $1 million to be used exclusively for expanding
courses for foreign officers as well as for civilian managers and administrators of defense
establishments. The focus of such training is on developing professional level
management skills, with emphasis on military justice systems, codes of conduct, and the
protection of human rights. Section 541, FAA, was amended to permit non-Ministry of
Defense civilian government personnel to be eligible for this program, if such military
education and training would:

   •	 Contribute to responsible defense resource management.
   •	 Foster greater respect for and understanding of the principle of civilian control of
      the military.
   •	 Contribute to cooperation between military and law enforcement personnel with
      respect to counternarcotics law enforcement efforts.
   •	 Improve military justice systems and procedures in accordance with
	
      internationally recognized human rights.
	

This expanded IMET (E-IMET) program was further extended in FY 1993 to also
include participation by national legislators who are responsible for oversight and


                                            47
	
management of the military. The E-IMET program authority was again amended in 1996
by P.L.104-164 to also include nongovernmental organization personnel.

Drawdowns
During a crisis, Section 506, FAA, authorizes the president to provide USG articles,
services, and training to friendly countries and international organizations at no cost, to
include free transportation. There is a $100 million ceiling per FY on articles, services,
and training provided for military purposes and another FY ceiling of $200 million for
articles, services and training required for non-military purposes such as disaster relief,
nonproliferation, antiterrorism, counternarcotics, refugee assistance, and Vietnam War-
era missing in action/prisoners of war location and repatriation. When emergency
support for peacekeeping operations is required, Section 552(c)(2), FAA, separately
authorizes the President to drawdown up to $25 million per FY in USG articles and
services from any agency. Special drawdown authorities are periodically legislated to
include $30 million in support for the Yugoslav International Criminal Court. These non-
appropriated authorities are administered by DSCA when defense articles, services, or
training from DoD are to be drawn down.

Direct Commercial Sales
DCS are commercial exports of defense articles, services, and training licensed under the
authority of Section 38, AECA, made by U.S. defense industry directly to a foreign
government. Unlike the procedures employed for FMS, DCS transactions are not
administered by DoD and do not normally include a government-to-government
agreement. Rather, the required USG controls are implemented through licensing by the
Directorate of Defense Trade Controls in the DoS. The day-to-day rules and procedures
for these types of sales are contained in the International Traffic in Arms Regulations [22
CFR 120-130].

Of note, not all license approvals will result in signed contracts and actual deliveries.
Like FMS, DCS deliveries are likely to take place years after the commercial contract is
signed and the export license is obtained by U.S. industry.

Other Security Assistance Related Programs
While these following programs are not identified by DSCA in the SAMM as one of the
specific security assistance programs, they are very much related to the duties of the
security assistance community, both in the United States and recipient foreign
governments.

Excess Defense Articles
Excess defense articles (identified by the MILDEP or DoD agency are authorized for sale
using the FMS authority in Section 21, AECA, and FMS processes identified within the
SAMM for property belonging to the USG.) Prices range from 5 to 50 percent of original
acquisition value, depending on the condition of the article. Additionally, Section 516,
FAA, authorizes the president to transfer excess defense articles on a grant basis to
eligible countries (justified in the annual Congressional Budget Justification). While



                                            48
	
excess defense articles can be transferred at no-cost, the recipient must typically pay for
any transportation or repair charges. Under certain circumstances, transportation charges
may be waived, with the cost absorbed by DoD appropriated funds.

Third-Country Transfers
Section 3(d), AECA, authorizes the president to manage and approve the transfer of U.S.-
origin defense articles from the original recipient country to a third country. Requests for
third-country transfers are normally approved if the USG is willing to conduct a direct
transfer to the third country. Third-country transfer authority to countries must be
obtained in writing from the DoS in advance of the proposed transfer. This applies to all
U.S.-origin defense articles regardless of the method of original transfer from the USG or
U.S. industry.

End-Use Monitoring
This program is not a specific requirement of the Foreign Assistance Act, but came later
as a provision in the Arms Export Control Act. It is a key monitoring responsibility for
equipment of U.S. origin. In some cases EUM involves monitoring the use of critical
technology or other selected items, which may require the SCO to conduct periodic
inventories and inspections of specific items that the United States has sold, transferred,
or leased.

OSC-I Design Security Cooperation Functions 22
Besides the core security assistance activities, other security cooperation activities were
also identified that most likely would be required post-2011 to support a foundation of
building a defense relationship, developing military capability, and providing access with
the partner nation. Descriptions of activities that fall within the scope of OSC-I for
management, coordination, or execution and most likely will be enduring are listed
below. In addition to the security assistance functions discussed in the last section that
the OSC-I was to assume by its IOC date of June 1, 2011, the OSC-I was supposed to
have the capacity of performing these remaining security cooperation functions by its full
operating capability (FOC) date of October 1, 2011. Though not delineated in any one
source, the following categorizes DoD-authorized security cooperation programs the


22
  Security Assistance program definitions derived from: The Management of Security Cooperation,
Defense Institute of Security Assistance Management “Greenbook”, 30th Edition, January 2010, pp. 1-6 –
1-16, except for those items annotated with an asterisk (*) in the title. [Note: Items annotated with an
asterisk (*) in the title were derived from a USF-I Information Paper, USF-I Enduring Activities, dated
January 24, 2010.] The Defense Institute of Security Assistance Management Greenbook indicates that
other sources for identifying DoD security cooperation programs include the Theater Security Cooperation
(TSC) Activities Handbook used within the U.S. European theater of operations and the Army International
Activities Plan published by the U.S. Army. The Defense Institute of Security Assistance Management
Greenbook also states that another method of identifying the difference between security assistance and
security cooperation is the source of authority within the United States Code for the program. The U.S.C. is
the codification of the general and permanent U.S. laws divided into 50 titles by subject matter. 22 U.S.C.,
or Title 22, pertains to U.S. foreign relations to include FAA and AECA security assistance. 10 U.S.C., or
Title 10, pertains to the U.S. armed forces to include DoD security cooperation. It should be noted
however that certain DoD security cooperation program authorities also reside with 22 U.S.C.


                                                    49
	
OSC-I was designed to perform at FOC, with a brief description and references for each
program. It should be reiterated that the previously described FAA and AECA-
authorized security assistance programs administered by DoD in accordance with the
SAMM also fall under the broad definition of security cooperation.

Acquisition and Cross-Servicing Agreements
Acquisition and cross-servicing agreements (ACSA) are initiated and negotiated by a
Geographic Combatant Commander (GCC) to allow U.S. logistics support of a military
unit of another country. Lethal significant military equipment or support reasonably
available from U.S. commercial sources may not be provided under an ACSA. The Joint
Chiefs of Staff, the Office of the Secretary of Defense, and the Department of State, to
include a thirty day advance notification to Congress, must approve the proposal before
the agreement is negotiated and concluded by the GCC.

The authority for an ACSA is 10 U.S.C., 2341-2350, with procedures provided in DODD
2010.9, and Section C11.1, SAMM. However, the National Defense Authorization Act
(NDAA) for FY 2007, P.L.110-417, 109-364, 17 October 2006, Section 1202, as
amended, authorizes the loan of certain categories of significant military equipment
defense articles to countries participating in coalition operations in Iraq, Afghanistan, or
for peacekeeping operations for up to one year. The authorization is extended through
FY 2011. It must be determined by the secretaries of state and defense that it is in the
U.S. national security interest to provide this loan and there are no unfilled U.S. in-theater
requirements for the loaned articles.

Aviation Leadership Program
Section 544(c), FAA, authorizes the cooperative participation of foreign and U.S.
military and defense civilian personnel in post-undergraduate flying training and tactical
leadership programs at locations in Southwest Asia without charge to participating
foreign countries. IMET funds are not to be used in support of the Aviation Leadership
program. The United States participation is to be funded by the MILDEP. A presidential
national interest waiver may be used to allow a country to participate on a no-cost basis
with the U.S. MILDEP absorbing the charge.

Building Partner Capacity of Foreign Militaries
Beginning in FY 2006, up to $350 million in DoD funding may be used annually to
equip, supply, and train foreign military forces (including maritime security forces) to
conduct counterterrorism operations, or participate in or support military and stability
operations in which U.S. forces are participating. Any country prohibited by law from
receiving such assistance may not receive such assistance. This program is initially
authorized by NDAA FY 2006, Section 1206, as amended, to currently expire at the end
of FY 2011. This annual “1206” authority for individual programs is to be notified to
Congress fifteen days prior to implementation, with the funds to be obligated prior to the
end of the subject FY. This short time requirement places significant pressure on the
MILDEP acquisition agencies for execution. Pseudo LOA case procedures are used for
the implementation and management of this program. This program is managed by
DSCA and the MILDEPs in support of Assistance Secretary of Defense for Special


                                             50
	
Operations/Low-Intensity Conflict and the GCC; requests are often initiated by the SCO.
Both the secretaries of defense and state must concur with proposed programs prior to
notifying Congress. Legislative proposals have regularly sought to raise the 1206 cap,
with $500 million annually requested beginning in FY 2011.

Department of Defense Regional Centers for Security Studies
Title 10 authorities and DoD appropriations funded the development of five regional
centers for security studies. The centers serve as a mechanism for communicating U.S.
foreign and defense policies to international students, a means for countries to provide
feedback to the United States concerning these policies and communicating country
policies to the United States. The regional centers’ activities include education, research,
and outreach. They conduct multi-lateral courses in residence, seminars within their
region, and conferences that address global and regional security challenges, such as
terrorism and proliferation. Participants are drawn from the civilian and military
leadership of allied and partner nations. Security assistance funding is not used to pay for
the centers or the students attending them.

However, under certain circumstances, DoD funds may be used to fund foreign
attendance at the centers. The Under Secretary of Defense for Policy in coordination
with the relevant GCC provides oversight for the five centers. DODD 5200.41 provides
policy and management guidance. Beginning in FY 2006, DSCA began administering
the DoD centers under the direction of the Under Secretary of Defense for Policy. The
five centers are:

   •	 Africa Center for Strategic Studies, located at the National Defense University in
      Fort McNair, Washington, D.C. was established in 1999.
   •	 Asia-Pacific Center for Security Studies, located in Honolulu, Hawaii, was
      established in 1995.
   •	 Center for Hemispheric Defense Studies, located at the National Defense 

      University in Fort McNair, Washington, D.C., was established in 1997. 

   •	 George C. Marshall European Center for Security Studies, located in Garmisch,
      Germany, was established in 1993.
   •	 Near-East South Asia Center for Strategic Studies, located at the National
      Defense University in Fort McNair, Washington, D.C., was established in 2000.

Section 904 of the NDAA for FY 2007 finally codified the authority for these regional
centers with a new 10 U.S.C., 184.

Developing Country Attendance at Bilateral & Multilateral
Meetings
10 U.S.C., 1051 authorizes the use of DoD funds to support the attendance of
representatives from developing countries to attend bilateral and multilateral meetings,
usually GCC sponsored. Attendance at these meetings provides the opportunity to
continue to develop operational access that requires considerable precursor activity such
as high-level visits and bilateral exercises to set the conditions for future security



                                            51
	
cooperation. The SCO assists the partner nation in preparing for these meetings and may
even escort the partner nation members to the meetings if the need arises. This activity is
essential in the development of not only foundational security development but provides
advanced level support to building partnerships and cooperation.

Developing Country Combined Exercise Program
The Developing Country Combined Exercise Program (DCCEP) is authorized by
10 U.S.C. 2010 to use DoD funds to pay for incremental expenses for a developing
country to participate in a combined exercise with U.S. forces. Such expenses normally
include rations, fuel, training ammunition, and transportation. The Joint Staff in
coordination with the GCC manages DCCEP. This authority was further amended in FY
2009 with a new 10 U.S.C. 2010(d) authorizing funding for exercise expenses that begin
in one FY and extend into the following FY. This assists the partner nation to develop
operational capabilities, interoperability and also directly supports operational access
requirements that enable joint/combined operations and exercises and allows for
integration into regional security relationships and organizations.

Embedded and Mobile Training Teams*
This program consists of U.S. military and civilian personnel assigned temporarily in
country to train/educate (Mobile Training Teams [MTT] or Mobile Education Teams,
[MET], respectively) foreign military personnel in the operation, maintenance, or other
support of weapon systems and support equipment, as well as training for general
military operations. MTTs may be funded from either FMS or IMET Programs.
MTTs/METs are authorized to conduct in-country training when the requirement is
beyond the capability of the SCO to provide advice and specific training. This activity is
almost always more effective to bring the training to the country vice transporting an
entire unit to the United States for the same training.

Exercise-Related Construction
The Exercise – related Construction Program is authorized by 10 U.S.C. 2805 with policy
guidance provided within Chairman of the Joint Chiefs of Staff Instruction 4600.01A to
allow overseas construction by the U.S. military in locations where there is no permanent
U.S. presence. The construction is to enhance exercise effectiveness, enhance troop
quality of life, and increase operational readiness. The construction is typically used by
U.S. forces during an exercise but remains intact for host nation use after departure.
Projects may include new construction, conversion of existing facilities (e.g., warehouses
into exercise operations centers), and restoration of deteriorating facilities.

The United States. and/or the host nation engineer units and construction contracts may
be used to accomplish projects. When construction is accomplished with partner nation
engineers, interoperability benefits are also obtained. The Joint Staff logistics
engineering division manages the program through the engineer divisions of the area
GCCs.




                                            52
	
Joint Combined Exchange Training
The Joint Combined Exchange Training Program (JCET) includes the deployment by
U.S. special operations forces with the dual purpose of training themselves and foreign
counterparts. 10 U.S.C. 2011 provides the authority for the use of DoD funding for
JCET. This funding can be used for the training of the foreign counterpart, expenses for
the U.S. deployment, and, for developing countries, the incremental expenses incurred by
the country for the training. The JCET program is carefully followed by Congress
because of concerns about inadequate civilian oversight and fears that such training might
benefit units or individuals who have committed human rights violations. This program
supports the developing country combined exercise program and is specifically targeted
at special operations and related types of training to include special operations support to
combat terrorism. It is also supported by a number of other programs to include
information sharing and intelligence capacity building.

In addition to JCET, the NDAA, FY 2005, Section 1208, P.L. 108-375, 28 October 2004,
as amended, provided for the Special Operations Support to Combat Terrorism program
that originally authorized the Secretary of Defense to expend up to $25 million in DoD
funding annually to support foreign forces, irregular forces, groups, or individuals
engaged in supporting or facilitating ongoing operations by U.S. special operations forces
in combating terrorism. This authority is not to be delegated below the Secretary of
Defense and requires the concurrence of the relevant U.S. Chief of Mission. This annual
“1208” authority is now $40 million through FY 2013 with a proposed increase of $50
million annually beginning in FY 2011.

Medical Team Deployments*
These team deployments are traditionally a part of a larger exercise and are conducted on
the most part by National Guard and Reserve medical personnel. The SCO coordinates
with the partner nation and assists in preparing for the receipt of medical team staff to
conduct their training and exercises. Additionally, military veterinarians can assist with
industrial hygiene and other training for partner medical personnel. This activity
specifically increases the health status of the partner nation and provides strengthening of
friendship and medical capability of both nations.

Military Academies and Senior War College
Military Academy Student Exchanges
By international agreement, the MILDEP secretaries each may authorize up to 24
students annually to participate in the reciprocal exchange of cadets to attend the
appropriate military academies. The authorities for this exchange program are:
    • 10 U.S.C. 4345 for the U.S. Military Academy
    • 10 U.S.C. 6957a for the U.S. Navy Academy
    • 10 U.S.C. 9345 for the U.S. Air Force Academy




                                             53
	
Senior War College
10 U.S.C. 2111 authorizes DoD and the MILDEPs to provide quotas to international
students to attend the various senior officer war colleges. The MILDEP secretaries each
may provide up to sixty quotas at any one time to foreign military students to attend the
three military academies. .The secretary of defense may waive all or any part of the
requirement to reimburse any cost for attendance. .The invitations to attend the academies
are offered by the MILDEP secretaries usually through the Office of Defense Attaché.
These programs are not considered security assistance; authorities for attending the
military academies are:
    • 10 U.S.C. 4344(a)(1) for the U.S. Military Academy
    • 10 U.S.C. 6957(a)(1) for the U.S. Navy Academy
    • 10 U.S.C. 9344(a)(1) for the U.S. Air Force Academy

Military and Professional Exchange Program
Professional Military Education Student Exchanges
Section 544(a), FAA, authorizes by international agreement no-cost, reciprocal
professional military education (PME) student exchanges. PME usually includes
attendance at the MILDEP leadership and management education institutions but not to
include the service academies. The U.S. participant in this program will attend the
equivalent institution in the foreign country and be administratively supported by either
the local Office of Defense Attaché or SCO.

Defense Personnel Exchange Program
The NDAA for FY 1997, Section 1082, authorizes DoD and the MILDEPs to enter into
international agreements for the reciprocal, no-cost exchange of qualified military or
defense civilian personnel with allied or friendly countries. NDAA for FY 2008, Section
1201 amends 10 U.S.C. 168(c) authorizing the assignment of personnel on a non-
reciprocal basis, rather than an exchange, if determined to be in the U.S. interests. This
personnel exchange program is widely subscribed to throughout DoD to include the
administrative, intelligence, acquisition, training and education, and operational and
reserve unit and staff communities. A sample of these programs includes:

   •   Foreign counterpart visits for the service chiefs of the Army, Air Force, and Navy
   •   Personnel exchange programs managed by each of the four military services
   •   The Army’s reciprocal unit exchange program
   •   The DoD reserve officers foreign exchange program.

Multi-lateral Interoperability Program*
This program focuses on developing command and control, operational and technical
capabilities; doctrine; and tactics, techniques and procedures with partner nations so that
the United States and partner forces can operate effectively and interchangeably in
designated combined operations. Particular focus is placed on air and missile defense
and maritime security interoperability. Increasing partners’ ability to plan, train and
operate with U.S. forces and allies, with an emphasis on communications interoperability.


                                            54
	
The Office of Security Cooperation will provide advice and mentorship to the partner
nation regarding activities and equipment applied to multilateral interoperability
programs.

Multi-lateral Planners Conferences*
This program serves as a mechanism for communicating U.S. foreign and defense
policies to international partners and a means for countries to provide feedback to the
United States concerning these policies and communicating country policies to the
United States. These conferences assist participants in preparing their respective
countries for participation in selected or serial exercises. The United States leads these
conferences so that a leveling of information is achieved and further assistance or
resourcing is able to be planned for.

Security Force Assistance Activities*
These activities are an integral part of any security cooperation program and provide the
added focused effort to ensure that a foreign military is trained to a standard that is far
superior to most world wide security forces. By applying the capability imbedded in a
unit capable of conducting Security Force Assistance that entire range of peace time and
war time activities of military forces can be demonstrated and supported. This specific
activity brings with it the requirement for additional congressional approval and
acceptance or request by/for the government of Iraq to conduct. Additional Title 10
funding is required to support the force as it falls outside the scope of Title 22 funding.
Agreements are normally required by both countries (the United States and the partner
nation) to conduct this type of activity.

Other Military-to-Military Contact and Security
Cooperation Programs
Though not specifically listed in the proposed OSC-I design functions, the following lists
a number of other security cooperation related programs that it might be involved in
supporting. Many of these programs have been around for a long time and continue
today as a general program to establish and strengthen professional (and personal)
relationships between two country counterparts.

Traditional Combatant Commander Activities
10 U.S.C. 168 authorizes DoD, normally the GCC, to conduct military-to-military
contacts and comparable activities with allied and friendly countries to encourage a
democratic orientation of defense establishments and military forces. Some functions
include:
    • Traveling contact teams
    • Military liaison teams
    • Exchange of military and civilian personnel
    • Seminars
    • Conferences within the GCC area of responsibility.




                                             55
	
Funding for the Traditional Combatant Commander Activities program is provided to the
GCC by the MILDEPs will act as executive agents. Section 1202, P.L. 110-417,
provided a new 10 U.S.C. 168(e)(5) authorizing the use of funds for such expenses that
begin in one FY and extended into the following FY.

Combatant Commander Initiative Fund
The Combatant Commander Initiative Fund consists of GCC-nominated special interest
programs authorized by 10 U.S.C. 166a to be funded at a rate of $25 million annually.
The FY 2010 DoD appropriations act provides up to $50 million for Combatant
Commander Initiative Fund with not more than $12.5 million to be used in Iraq or
Afghanistan.

Regional Defense Combating Terrorism Fellowship Program
The Regional Combating Terrorism Fellowship Program (CTFP) was established in 2002
first with DoD funding, later with DoD authorizations, and now under 10 U.S.C. 2249c.
The purpose of the program is to help key partner nations cooperate with the United
States in the fight against international terrorism by providing education and training on a
grant basis to foreign military and civilian personnel. The objective is to bolster the
capacity of friends and allies to detect, monitor, interdict, and disrupt the activities of
terrorist networks, ranging from weapons trafficking and terrorist-related financing to
actual operational planning by terrorist groups. The Assistance Secretary of Defense for
Special Operations/Low Intensity Conflict is the Office of the Secretary of Defense
Manager of CTFP, in coordination with the GCCs. The day-to-day administration of the
program is performed by DSCA. The $20 million was originally appropriated to DoD for
CTFP. The management of quotas is very similar to that of IMET. Section 1204,
P.L.109-364, amended the annual funding authority to $25 million. Later, Section 1214
of P.L. 110-417 amended the authorized annual funding level to $35 million.




                                            56
	
Appendix E. Organizations Contacted and
Visited
We visited, contacted, or conducted interviews with officials (or former officials) from
the following U.S. and Iraqi organizations:

Government of the United States
Iraqi National Security Council Advisor

Department of State
U.S. Embassy - Baghdad
   •	   Political Military Advisor
   •	   Regional Security Officer
   •	   Management Affairs
   •	   International Narcotics and Law Enforcement
   •	   Assistant Chief of Mission for Assistance Transition
   •	   Knowledge Management

Department of Defense
Office of the Secretary of Defense (OSD)
   •	 Office of the Under Secretary of Defense for Acquisition, Technology and
      Logistics – Deputy Assistant Secretary of Defense for Maintenance Policy and
      Programs
   •	 Office of the Under Secretary of Defense for Policy – Deputy Assistant Secretary
      of Defense, Middle East
   •	 Office of the Under Secretary of Defense (Comptroller)/Chief Financing Officer –
      Cost Assessment and Policy Evaluation

Joint Staff
   •	 Chief, Personnel Readiness Division (J1)
   •	 Director, Strategic Plans and Policy (J5)

U.S. Central Command
   •	 Headquarters
      •	 CCJ1 – Manpower
      •	 CCJ3 – Operations Directorate
      •	 CCJ4 – Logistics Directorate
      •	 CCJ5 – Strategy, Plans and Policy Directorate
      •	 CCJ7 – Exercises and Training



                                            57
	
        •   CCJ8 – Resources and Analysis
        •   CCJA – Judge Advocate
        •   Historian
        •   NATO LNO

    •   U.S. Forces – Iraq
        • J1 (Personnel)
        • J35 (Operations)
        • J4 (Logistics)
        • J5 (Plans)
        • J7 (Engineering)
        • J8 (Finance)
        • J9 (Strategic Communications)
        • Deputy Commanding General for Advising and Training
               o Executive Director
               o ITAM Ministry of Defense
               o ITAM Ministry of Interior
               o ITAM Police
               o ITAM Army/OSC-I Army
               o ITAM Army Aviation/OSC-I Army Aviation
               o ITAM Navy/OSC-I Navy
               o ITAM Air Force/OSC-I Air Force
               o OSC-I Comptroller
               o OSC-I Contracting
               o OSC-I Engineering
               o OSC-I Operations/Plans/Training
               o OSC-I Personnel Management
               o OSC-I Strategic Logistics

    Defense Agencies
    •   Defense Security Cooperation Agency

Government of Iraq
Ministry of Defense
•   Director General for Acquisition and Sustainment
•   Deputy Commander, Joint Headquarters

Ministry of Interior
•   Director General for Contracting




                                            58
	
Appendix F. Management Comments
USCENTCOM and OSC-I Comments




                        59
	
USCENTCOM and OSC-I Comments





                         60
	
USCENTCOM and OSC-I Comments





                         61
	
USCENTCOM and OSC-I Comments





                         62
	
USCENTCOM and OSC-I Comments





                         63
	
Page Intentionally Blank
	




           64
	
Appendix G. Report Distribution

Department of State
Secretary of State
U.S. Ambassador to Iraq
Assistant Secretary of State for Political-Military Affairs
Inspector General, Department of State

Office of the Secretary of Defense
Secretary of Defense
Deputy Secretary of Defense
Chairman of the Joint Chiefs of Staff
Under Secretary of Defense for Acquisition, Technology and Logistics
Under Secretary of Defense (Comptroller)/Chief Financial Officer
Deputy Chief Financial Officer
Deputy Comptroller (Program/Budget)
Under Secretary of Defense for Policy
Under Secretary of Defense for Personnel and Readiness
Vice Chairman of the Joint Chiefs of Staff
Assistant Secretary of Defense (Legislative Affairs)
Assistant Secretary of Defense (Public Affairs)
Director, Program Analysis and Evaluation
Director, Defense Procurement and Acquisition Policy
Director, Joint Staff
Director, Operations (J-3)
Director, Logistics (J-4)
Director, Strategic Plans and Policy (J-5)
Director, Joint Force Development (J-7)

Department of the Army
Secretary of the Army
Assistant Secretary of the Army for Acquisition, Logistics, and Technology
Commander, U.S. Army Materiel Command
Commander, U.S. Army Materiel Command Logistics Support Activity
Commander, U.S. Army Security Assistance Command
Commander/Chief of Engineers, U.S. Army Corps of Engineers
Commander, Gulf Region Division, U.S. Army Corps of Engineers
Auditor General, Department of the Army
Inspector General of the Army

Department of the Navy
Naval Inspector General



                                             65
	
Department of the Air Force
Commander, Air Force Security Assistance Center
Inspector General of the Air Force

Combatant Commands
Commander, U.S. Central Command*
	
Commander, Joint Contracting Command-Iraq/Afghanistan
	

Other Defense Organizations
Director, Defense Logistics Agency
Director, Defense Security Cooperation Agency
The Special Inspector General for Iraq Reconstruction

Other Non-Defense Federal Organizations
Comptroller of the United States
Office of Management and Budget

Congressional Committees and Subcommittees,
Chairman and Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Foreign Relations
Senate Committee on Homeland Security and Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Oversight and Government Reform
House Subcommittee on Government Management, Organization, and Procurement
House Subcommittee on National Security and Foreign Affairs
House Committee on International Relations

*Recipient of the draft report.




                                          66
	
      Inspector General                                                                                             Special Plans & Operations
                 United States Department of Defense                                                                 Provide assessment oversight that addresses priority national security
                                                                                                                     objectives to facilitate informed, timely decision-making by senior
                                                                                                                     leaders of the DOD and the U.S. Congress.
      Vision
         One professional team strengthening the integrity, efficiency,
                   and effectiveness of the Department of Defense                                                    General Information
                               programs and operations.
                                                                                                                       Forward questions or comments concerning this assessment and report and other
       Mission                                                                                                         activities conducted by the Office of Special Plans & Operations to spo@dodig.mil


         Promote integrity, accountability, and improvement of Department                                                                 Deputy Inspector General for Special Plans & Operations

                                                                                                                                                Department of Defense Inspector General

             of Defense personnel, programs and operations to support the
                                                                                                                                                           400 0DUN&HQWHU Drive

                  Department's mission and serve the public interest.
                                                                                                                                                        AOH[DQGULD, VA 22





                                                                                                                                               Visit us at www.dodig.mil


                                                                                                                       DEPARTMENT OF DEFENSE



                                                                                                                       hot line
The Department of Defense Inspector General is an independent, objective agency within the U.S. Department
of Defense that was created by the Inspector General Act of 1978, as amended. DoD IG is dedicated to serving                                                 make a difference   Report                        www.dodig.mil/hotline
the warfighter and the taxpayer by conducting audits, investigations, inspections, and assessments that result in                                                800.424.9098
improvements to the Department. DoD IG provides guidance and recommendations to the Department of                                                                                Fraud, Waste, Mismanagement, Abuse of Authority
                                                                                                                                                                                 Suspected Threats to Homeland Security
Defense and the Congress.                                                                                              Defense Hotline,The Pentagon, Washington, DC 20301-1900   Unauthorized Disclosures of Classified Information
